<html>
<title> - NORTHERN IRELAND: STORMONT, COLLUSION, AND THE FINUCANE INQUIRY</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                 NORTHERN IRELAND: STORMONT, COLLUSION,
                        AND THE FINUCANE INQUIRY

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2015

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 114-1-2]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Available via http://www.csce.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-241 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


































            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,    ROGER F. WICKER, Mississippi,
Chairman                             Co-Chairman
ALCEE L. HASTINGS, Florida           BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama          JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas            RICHARD BURR, North Carolina  
STEVE COHEN, Tennessee               JEANNE SHAHEEN, New Hampshire
JOSEPH R. PITTS, Pennsylvania        TOM UDALL, New Mexico
LOUISE McINTOSH SLAUGHTER,           
New York
RANDY HULTGREN, Illinois
ALAN GRAYSON, Florida
                                     
               SHELDON WHITEHOUSE, Rhode Island

                     EXECUTIVE BRANCH COMMISSIONERS

                          Department of State
                         Department of Commerce
                         Department of Defense

                                  [ii]

















                 NORTHERN IRELAND: STORMONT, COLLUSION,
                        AND THE FINUCANE INQUIRY

                              ----------                              

                             March 18, 2015
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Robert Aderholt, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    22

                                MEMBERS

Hon. Brendan Boyle (R-13), a Member of Congress from the State of 
  Pennsylvania...................................................     3
Hon. William Keating (D-9), a Member of Congress from the State 
  of Massachusetts...............................................     4
Hon. Joseph Crowley (D-14), a Member of Congress from the State 
  of New York....................................................     5

                               WITNESSES

Geraldine Finucane, Widow of Murdered Human Rights Lawyer Patrick 
  Finucane.......................................................     6
Professor Kieran McEvoy, Queen's University School of Law, 
  Belfast, Northern Ireland......................................    11
Anne Cadwallader, Author, ``Lethal Allies: British Collusion in 
  Ireland ''.....................................................    15

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    28
Prepared statement of Hon. Benjamin L. Cardin....................    30
Prepared statement of Secretary of State John Kerry..............    31
Prepared statement of Geraldine Finucane.........................    32
Prepared statement of Kieran McEvoy..............................    39
Prepared statement of Anne Cadwallader...........................    45

                                 [iii]

 
                      NORTHERN IRELAND: STORMONT,
                          COLLUSION, AND THE
                            FINUCANE INQUIRY

                              ----------                              


                             March 18, 2015

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2:45 p.m. in room 2175, Rayburn 
House Office Building, Washington, DC, Hon. Christopher H. 
Smith, Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Robert Aderholt, Commissioner, Commission on Security and 
Cooperation in Europe.
    Members present: Hon. Brendan Boyle (R-13), a Member of 
Congress from the State of Pennsylvania; Hon. William Keating 
(D-9), a Member of Congress from the State of Massachusetts; 
and Hon. Joseph Crowley (D-14), a Member of Congress from the 
State of New York.
    Witnesses present:  Geraldine Finucane, Widow of Murdered 
Human Rights Lawyer Patrick Finucane; Professor Kieran McEvoy, 
Queen's University School of Law, Belfast, Northern Ireland; 
and Anne Cadwallader, Author, ``Lethal Allies: British 
Collusion in Ireland. ''

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. Good afternoon, and first of all, let me just 
say at the outset I apologize for the lateness in starting this 
hearing. We did have a series of votes on the floor preventing 
and precluding all of my colleagues and myself being here. So 
again, I thank you for your patience at the late start of the 
hearing.
    I want to begin by welcoming everyone at this hearing 
today, especially our witnesses, all of whom are joining us 
from Northern Ireland. We thank you for giving us the 
opportunity to hear from you, to learn from you about ongoing 
efforts for accountability, justice and reconciliation in 
Northern Ireland.
    This is the 15th congressional hearing that I've chaired on 
human rights in Northern Ireland--the first one was back in 
1997--and many of my colleagues on the Commission with us today 
have joined us for these hearings. This is to say many of us in 
Congress deeply care about these issues, follow them regularly, 
and will continue to do so. This is one of the most bipartisan 
issues on Capitol Hill. It has been, is, and will continue to 
be.
    In December of 2014, the parties of the Northern Ireland 
Executive and the governments of the United Kingdom and the 
Republic of Ireland approved the Stormont House Agreement, with 
commitments for ``dealing with the past''--that is, addressing 
crimes and the consequences of crimes of ``the Troubles.'' 
Other provisions address government reform and other 
controversial issues. And the British Government committed to 
funding new structured deal with conflict-related crimes and to 
assist the victims of ``the Troubles.''
    Today we look forward to hearing about steps to implement 
the Stormont House Agreement, and prospects for full, 
unfettered realization of processes to hold those who committed 
crimes accountable and finally provide a measure of justice to 
victims and to their families.
    We also look forward to learning about increasing 
revelations of government collusion in crimes committed by 
paramilitaries. For years British officials denied collusion in 
crimes committed by the paramilitaries. In recent years, 
however, evidence has mounted that its security services 
enabled or had direct knowledge of a substantial number of 
paramilitary murders. We hope to find out what the British 
Government has done in response. Is it on track to holding 
itself accountable?
    One particularly shocking instance of collusion was the 
1989 murder of human rights defense attorney Patrick Finucane. 
The Good Friday Agreement of 1998--one of the most outstanding 
diplomatic achievements of recent decades--left a number of 
issues unresolved, including the issue of British collusion in 
paramilitary crimes. In 2001, however, the British and Irish 
Governments dealt with this in negotiations at Weston Park. 
There the British Government assumed a solemn obligation to 
initiate a full, independent, public judicial inquiry into the 
Finucane murder and five other crimes if so recommended by 
retired Canadian Supreme Court Justice Peter Cory.
    On May 5th, 2004, Justice Cory did recommend a public 
inquiry in the case of Patrick Finucane. He released this 
recommendation at a public hearing of this Commission. To date, 
the Finucane murder remains the only case Judge Cory 
investigated where his recommendation has not--I repeat, not--
been honored. This is deeply unsatisfactory for many reasons, 
but not the least of which because it is evidently the one 
where the British Government is probably the most culpable.
    The Finucane murder is also a case in which--until the 
Prime Minister's apology in December of 2011--there has been 
the greatest level of sustained official denial and obstruction 
by various state agencies. Obstruction went to such a point 
that, rather than provide the promised inquiry, in 2004, the 
British Government prepared new legislation governing 
inquiries. This would allow the government to withhold evidence 
from the inquiry process. Total subterfuge.
    The Finucane family rightfully declined to accept such an 
inquiry. And Judge Cory wrote a letter to me in which he 
stated, and I quote in pertinent part: ``The proposed new Act 
would make a meaningful inquiry impossible. The commissions 
would be working in an impossible situation. For example, the 
Minister, the actions of whose ministry was to be reviewed by 
the public inquiry, would have the authority to thwart the 
efforts of the inquiry at every step. It really creates an 
intolerable Alice in Wonderland situation.'' Close quote.
    Though in 2012 Prime Minister Cameron acknowledged and 
admitted ``shocking''--that's his word--levels of collusion 
between the state and loyalist paramilitaries in the murder of 
Patrick Finucane, this does not substitute for the full 
exposition of the facts behind the British state's involvement 
in the murder of Patrick. Rather, the steady increase in the 
amount of evidence being revealed publicly that senior 
officials in the British state colluded in the murder has made 
honoring that commitment more important than ever. There is no 
statute of limitations on getting to the truth.
    The many previous denials and the time that has passed in 
the Finucane case has drained public confidence in the peace 
process and diminished respect for the rule of law in Northern 
Ireland. It must be said that there are those who oppose the 
peace process and their opposition is dangerous. The failure to 
address the case of Patrick Finucane in the manner promised by 
the British Government provides a readily available propaganda 
tool for those who would abuse it to further their own ends.
    Let me just--before going to my colleagues, I just want to 
say, this is the ninth time that a Finucane family member--
Geraldine, her 2 sons have testified at 9 of the 15 hearings. I 
can tell you that as chairman of the Human Rights 
[Sub]committee of the Foreign Affairs Committee, where I've 
held hearings on Northern Ireland and Pat's case as well, as 
well as the Commission on Security and Cooperation in Europe, 
that we will not rest until the public inquiry is initiated and 
all the facts are laid bare, and those responsible for this 
heinous crime are held to account.
    I'd like to now yield to my good friend, Mr. Boyle.

HON. BRENDAN BOYLE (R-13), A MEMBER OF CONGRESS FROM THE STATE 
                        OF PENNSYLVANIA

    Well, thank you, Mr. Chairman. And I said in a previous 
committee, your personal work in this area of human rights is 
incredible and very admirable.
    I am a new member of Congress, here only two and a half 
months, now representing Pennsylvania's 13th Congressional 
District. But while I am new to Congress, I'm not new to this 
case. I'm so sorry for what you've had to go through. For many 
years as a private citizen, I have read everything that I could 
about this case, and now have this position as a member of 
Congress to join with a number of colleagues who have been 
working on this far longer than I have. But just want to lend 
my voice as one member of Congress who deeply cares about this 
specific case and these issues, and will not be shy about 
expressing that point of view and don't plan on going anywhere 
anytime soon.
    So again, I thank you, Chairman Smith. Really here to 
sincerely know what happened and why there continues to be 
these delays and stalling. As one of the witnesses will 
testify, it might be a police inconvenience to expose a certain 
fiction, but it is absolutely the necessary work of truth and 
reconciliation that that fiction be exposed. Thank you.
    Mr. Smith. Thank you very much.
    I'd like to now yield to Mr. Keating.

HON. WILLIAM KEATING (D-9), A MEMBER OF CONGRESS FROM THE STATE 
                        OF MASSACHUSETTS

    Well, thank you, Mr. Chairman, for holding this hearing.
    I'd like to thank our panelists for being here, 
particularly Mrs. Finucane. I want you to know that your 
husband's life is not forgotten here, his loss is not 
forgotten, and your courage is greatly appreciated for coming 
here.
    It's been more than 17 years since the Good Friday 
Agreement. In that time, courage, conviction and hard work have 
led to a more peaceful and more purposeful effort, as well as 
increased prosperity in Northern Ireland. Of course, there's 
still much to do. There's still too much tension and mistrust 
between Catholic and Protestant communities.
    No one can dispute the importance of justice for victims of 
repression and their loved ones. Nor can we discount the role 
that tradition plays in shaping one's identity. As a former 
prosecutor, I understand the importance of truth and justice in 
criminal investigations, and especially one involving 
allegations of collusion. Bringing the facts of this case to 
light and holding perpetrators accountable is an essential part 
of grieving and can pave the way for reconciliation. It's also 
essential that investigations be independent and free of 
political influence. I also look forward to hearing from our 
witnesses in this regard.
    And as we examine the importance of dealing with the past, 
I hope we'll also discuss the importance of looking forward. In 
doing so, we should look to the example of those who have set 
aside division and discord in favor of cooperation and 
compromise. What these men and women have in common is their 
commitment to building a brighter future, as well as their 
faith in the rule of law and in equal opportunity.
    In that same spirit, I believe one area in particular 
merits close scrutiny: addressing the issues of segregation in 
both schools and housing is essential to future progress. Like 
the champions of segregation in America's not-too-distant past, 
many in Northern Ireland today argue that segregation is 
essential to maintaining peace and order. However, our own 
history shows that segregation only serves to feed fear and 
resentment. It reinforces stereotypes and it perpetuates 
inequality.
    The United States played a key role in brokering the Good 
Friday Agreement. We have a responsibility to continue to help 
the process move forward. I'm concerned that, in the rush to 
balance the budget, we have ignored crucial programs like the 
International Fund for Ireland and other crucial programs that 
work to bring communities together. These programs have been at 
the forefront of efforts to confront segregation and promote 
reconciliation in Northern Ireland. Zeroing out U.S. funding 
sends exactly the wrong message at a pivotal moment in the 
Northern Ireland peace process. Further--and this is 
important--there is specific appropriations language in both 
the House and the Senate directing the State Department to fund 
this program, yet there still seems to be a reluctance to do so 
in spite of that mandate.
    With that, I yield back. Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Keating.
    We're joined by Joe Crowley, gentleman from New York.

HON. JOSEPH CROWLEY (D-14), A MEMBER OF CONGRESS FROM THE STATE 
                          OF NEW YORK

    Thank you. Thank you, Mr. Chairman. I'm pleased to be here 
today.
    I want to thank Chairman Smith for organizing this 
important hearing today. Support on these issues is and has 
always been bipartisan, and that's the way it ought to be. 
There are lots of people to single out for their efforts at 
peace in the north of Ireland, and Chairman Smith is definitely 
one of them. So I thank you sincerely for all your efforts. He 
has used his position on the committee and on the Commission to 
champion these causes. And by holding a hearing like this today 
it gives the rest of us a forum to contribute as well. So thank 
you, Chris.
    It's no secret that the past few years have caused 
considerable concern for those of us who support peace in the 
north of Ireland and want the parties to have the opportunity 
to pursue their goals through the ballot instead of through the 
use of the bullet. There can be no return to the past, and I 
sincerely believe there won't be. So it is important to keep 
the current conflicts in context.
    When people fight for the welfare of the population and the 
use of the political process to do so, we here in the States 
think that's normal. That's the normal kind of conflict and 
disagreement that takes place in a legislature. Parties 
shouldn't be called intransigent just because they want to make 
a stand on helping the poor and the destitute, the people that 
they represent.
    I'm also concerned about some of the issues of the past. I 
had a meeting earlier today with Geraldine Finucane. I love 
Geraldine very much. I've come to admire her and respect her, 
and she's a friend of mine. But I don't really want to meet her 
under these circumstances anymore. I would like to see a 
genuine inquiry into her case so that her family can get the 
closure that she deserves and that her family deserves, and so 
she doesn't have to come to the United States, to the House of 
Representatives, year after year and decade after decade to 
bring closure to this case.
    What happened to her husband, Patrick, was wrong, and the 
government of Great Britain has acknowledged that through its 
Prime Minister. He apologized--and rightfully so--for that. But 
that action begs a further question: Why not take the next step 
and carry forward a real inquiry and reveal all that is known 
by the British Government? And until that happens, there'll be 
no closure in this case. I know that there are many, many cases 
on both sides of the divide that need to be brought about and 
have full disclosure on, but on a personal note I sincerely 
believe that this is one of the most outstanding cases that 
needs to have full closure.
    So, Mr. Chairman, thank you again for having me participate 
and for doing all you do. You don't, I don't think, get the 
credit you deserve for all your years of input here. So thank 
you, Chairman.
    Mr. Smith. Well, I want to thank my friend from New York 
for his ongoing contributions to peace, justice and 
reconciliation in Northern Ireland. As he pointed out so aptly, 
this is a bipartisan issue, and it has been, is, and will 
continue to be. And I very much enjoy working with my friend 
from New York.
    I'd like to now introduce our three distinguished 
witnesses, beginning first with Geraldine Finucane, who has for 
26 years sought an independent judicial inquiry into British 
Government's collusion in the 1989 murder of her husband. She 
was herself wounded in that terrible crime. This will be the 
ninth time, as I mentioned a moment ago, that she or one of her 
sons have testified. And as Joe pointed out, we'd like to see 
you under different circumstances in the future, not making 
this plea, particularly to the British to finally honor their 
commitment. As she says in her testimony, the murder of Pat 
Finucane may well be in the past, but I do not believe it is 
irrelevant to the future. Past is prologue. How well a country 
honors its commitment, particularly in looking at the messiness 
and the collusion that occurred, is a harbinger of what a 
country will do with regards to other issues in the future. So 
I want to thank her for her unbelievable persistence, for her 
love for her husband, which is so clear and compelling over 
these many, many years, and now it's decades.
    We'll then hear from Kieran McEvoy, who is a professor of 
law and fellow with the Institute for the Study of Conflict 
Transformation and Social Justice at the Queens University in 
Belfast. Professor McEvoy has a long history of scholarship and 
advocacy on behalf of human rights and conflict transformation. 
He served as a board member of the Committee on the 
Administration of Justice, or CAJ, for much of the last two 
decades, as well as being a founding member of the Community 
Restorative Justice Ireland. He is also an active member of 
Healing Through Remembering. So welcome, Professor. Thank you 
for being here.
    And then we will hear from Ms. Anne Cadwallader, who is an 
experienced journalist originally from London who has devoted a 
substantial part of her career to reporting on Northern 
Ireland. She is the author of ``Holy Cross: The Untold Story,'' 
published in 2004, and in 2013 of ``Lethal Allies: British 
Collusion in Ireland.'' Since 2009, she has been an 
investigator and caseworker at the Pat Finucane Centre for 
Human Rights. And welcome to her as well.
    Geraldine, if you could proceed.

   GERALDINE FINUCANE, WIDOW OF MURDERED HUMAN RIGHTS LAWYER 
                        PATRICK FINUCANE

    Mr. Chairperson, my fellow speakers, distinguished guests, 
ladies and gentlemen, on behalf of my entire family, I would 
like to thank you for this invitation to speak today and to 
testify before this Commission. I would especially like to 
thank the Chairman, Mr. Smith, for his continued interest in 
the case of Patrick Finucane, my husband, in particular, and 
the issue of human rights in Northern Ireland in general. As 
many people will know, Mr. Smith has been a keen supporter of 
and advocate for the development and enhancement of human 
rights in Northern Ireland throughout the peace process. His 
work and that of the Helsinki Commission--and of Congress in 
general--has proved invaluable to the people of Ireland in 
maintaining and developing our peace initiative.
    I think the topic we are discussing is one of the most 
important aspects of the peace process in Ireland--namely, how 
we approach our past, how we deal with it and how we move 
beyond it, without forgetting it or, worse still, pretending it 
did not happen. This is something I know from my own personal 
experience.
    I am here today because of what happened to my husband, 
Patrick Finucane, who was murdered by loyalist paramilitaries 
in Belfast in 1989. As is now a matter of public record 
throughout the world, Pat was a lawyer practicing in Northern 
Ireland during the period of civil conflict that extended 
throughout 1968 to '94. He specialized in criminal defense work 
and developed particular expertise in defending people charged 
with offenses under emergency laws introduced by the British 
Government during the conflict.
    As a result of his innovative approach to the work and the 
many successes that flowed from it, Pat became a target for 
loyalist paramilitaries who perceived him as partisan and an 
enemy of the state. As a result of his work, Pat was murdered 
by loyalist paramilitaries in February '89, with the active 
participation and collusion of British state and army agents. 
The false perception of Pat as being sympathetic to his 
clients' political beliefs and even that he engaged in unlawful 
activity on their behalf was fostered actively by the British 
Security Service, MI5, encouraged by the Royal Ulster 
Constabulary Special Branch and, I believe, the British Army's 
covert agency, the Force Research Unit.
    This much has been known for some time as a result of 
certain incidents that took place during Pat's lifetime and 
some of the evidence that has been revealed since his murder. 
It is for this reason that my family and I have campaigned for 
the last 26 years for the establishment of an independent 
judicial inquiry into his murder. We believe that the 
circumstances surrounding the murder are sufficiently serious 
to warrant the establishment of such an inquiry. In this we are 
supported by the United Nations, Congress of the United States, 
President Barack Obama, the Irish Government, the British 
Labour Party, as well as a host of internationally recognized 
human rights NGOs. We have succeeded in litigating the issue 
against the British Government on several occasions at both 
domestic and international levels. Notwithstanding this, the 
British Government has refused to establish an inquiry into 
Pat's murder. It has blocked our efforts for years in an 
attempt to dissuade us from campaigning by means of constant 
delay. In recent years, we have seen them try to take advantage 
of this delay by claiming that the issue is now too old and 
should be confined to the past.
    The murder of Pat may well be in the past, but I do not 
believe it is irrelevant to our future. Just five weeks ago, on 
the anniversary of Pat's murder, events were held in Belfast 
and Dublin to commemorate his death. Over 300 people attended 
the Belfast event, many of whom knew Pat or had worked with him 
during his lifetime.
    However, it is not just Pat's friends and colleagues who 
continue to believe the need for an inquiry remains essential. 
Many people living in Ireland lack confidence in the 
establishment and are slow to accept that things have really 
changed. One of the examples that is often pointed to as a 
reason for this mistrust of the establishment is the lack of an 
inquiry into Pat's case, despite the truly shocking revelations 
of several major investigations.
    There is also the matter of the broken commitment by the 
British Government to establish an inquiry, as agreed by them 
with the Irish Government during negotiations at Weston Park in 
2001. At that conference, the British and Irish Governments 
agreed to establish an inquiry into the case if an independent 
judge of international standing recommended there should be 
one. The judge appointed was Peter Cory, former justice of the 
Supreme Court of Canada. He recommended such a public inquiry 
in 2004.
    I quote: ``The documents and statements I have referred to 
in this review have a cumulative effect. Considered together, 
they clearly indicate to me that there is strong evidence that 
collusive acts were committed by the Army, the RUC Special 
Branch and the Security Services. I am satisfied that there is 
a need for a public inquiry.'' End of quote.
    Needless to say, the inquiry recommended by Judge Cory and 
promised by the British Government has never materialized. 
Instead, the current government, led by David Cameron, 
established a review of the case because, according to the 
prime minister, and I quote again, ``the government's priority 
was to get to the truth in the best and most effective way.'' 
End of quote. In order to achieve this, he appointed a lawyer, 
Sir Desmond de Silva, to conduct a review of the papers in the 
case and to reach conclusions on foot of the materials he read.
    Firstly, I would like to say something about Sir Desmond de 
Silva from the point of view of perception and on the issue of 
public confidence in the state.
    Sir Desmond is a member of the British Conservative Party, 
the current party of government, and he has received a 
knighthood from the queen. He is also a privy councilor. 
Furthermore, he is a member of the Carlton Club in London, 
which describes itself as, and I quote, ``the oldest, most 
elite and most important of all Conservative''--Party--
``clubs.'' End of quote. Current members include John Major, 
Douglas Hogg, Boris Johnson and other Tory notables. Former 
members include Margaret Thatcher, Edward Heath and Winston 
Churchill.
    Sir Desmond has also been referred to on the Conservative 
Home Web site--a party political site that describes itself as 
``the home of Conservatism''--as ``a loyal Conservative who has 
excelled in his profession.''
    I make no comment on Sir Desmond personally or on his bona 
fides. However, I think it is stretching credulity to breaking 
point to suggest that appointing someone with such strong 
connections to the British establishment would inspire 
confidence in the Irish public when it comes to a case as 
sensitive and controversial as Pat Finucane.
    Sir Desmond delivered his report to the government on the 
10th of December 2012. At the time I labeled the report ``a 
sham'' and ``a whitewash.'' I believe I was right to do so at 
the time, and since then, having had even more of an 
opportunity to consider the report in detail, I am convinced I 
was right.
    The de Silva report claims to be a comprehensive analysis 
of the circumstances surrounding Pat's murder and a definitive 
examination of what happened to him. I refuse to believe this. 
The review conducted by Desmond de Silva reveals a great deal 
of information for the first time, but it is nowhere near being 
a complete answer. The report is based on a reading of 
documents without any questioning of their authors. Indeed, 
only 11 witnesses were spoken to by de Silva and 12 written 
submissions were received. No politicians were interviewed, nor 
were a number of key intelligence personnel, including the 
former head of military intelligence in Northern Ireland in 
charge at the time of Pat's murder.
    In this regard, Mr. Chairman, I would like to ask that an 
address by Pat's former law partner and colleague, Peter 
Madden, be added as an appendix to my testimony.
    Mr. Smith. Without objection, so ordered.
    Mrs. Finucane. Thank you.
    Perhaps most significant of all is the finding that the 
authorities had no advance knowledge of Pat's murder. I do not 
believe this finding has a credible foundation. I am amazed 
that a lawyer of the experience and knowledge of Sir Desmond 
could arrive as such a profound conclusion in such a cursory 
fashion.
    Other analysts of Pat's murder have come to the opposite 
conclusion. John Stevens, former commissioner of the London 
Metropolitan Police, came to the conclusion that Pat's murder, 
and I quote, ``could have been prevented,'' which suggests at 
the very least that there was advance knowledge of a plot to 
kill him.
    Were the British Army or other state agencies aware of such 
a plot? Only a public inquiry could answer this question.
    Judge Peter Cory, who published his report in 2004, also 
came to opposing conclusions in key aspects of the case. He 
believed that there was evidence to suggest that the British 
Army's Force Research Unit was aware of the plot to assassinate 
Pat. Sir Desmond deals with this crucial issue by saying, and I 
quote, ``I must respectfully differ with inferences he draws in 
relation to the Force Research Unit's prior knowledge of the 
targeting of Pat Finucane.'' End of quote.
    De Silva does not explain the basis for his conclusion. He 
does not say why he disagrees, merely that he does so.
    Is this to be the last word on the case of Pat Finucane 
insofar as the British state is concerned? Are we supposed to 
be satisfied with the response that on the central issue of 
British state involvement in and prior knowledge of the murder 
of a lawyer, an officer of their own courts, they simply prefer 
this verdict rather than the last one?
    It seems that the Cameron administration wants to pursue 
this line. It's not difficult to see why.
    By the same token, if my family and the general public lack 
confidence in the organs of the state, it's not difficult to 
see why.
    We have been presented with an obviously self-serving 
answer to a potentially damning question, and it is clear that 
the British Government is fighting against the prospect of a 
full and public accountability for its actions.
    I have said before that I have no wish to be more in the 
past, nor does anyone else. But misrepresenting important past 
events and concealing state wrongdoings will never free us from 
it.
    At the commemoration of Pat's murder in Belfast last month, 
one participant remarked that ``when the Finucanes take a step 
forward, we all take a step forward.'' I think this exemplifies 
the common view of our case in particular and the issue of the 
past in general.
    Proper examination of past issues does represent progress 
in contemporary society. It allows people to resolve the 
traumas in their lives and to lay to rest the ghosts that haunt 
them and society as a whole. It is not always necessary to 
punish or seek retribution. For many people--perhaps even most 
people--the truth about what happened is enough.
    We have not yet learned the full truth of what happened to 
Pat, but I believe we are getting closer. And one day, 
hopefully soon, I very much hope I will be testifying before 
this committee about achieving that goal.
    On behalf of my family, I ask for the support of this 
Commission to persuade the British Government to honor its 
longstanding promise to establish an independent public 
judicial inquiry into the murder of Pat Finucane.
    Thank you very much for this opportunity.
    Mr. Smith. Geraldine, thank you very much for your very 
compelling and persuasive testimony.
    Mr. Crowley does have to leave, but I'd like to yield to 
him before going to Professor McEvoy.
    Mr. Crowley. If you don't mind, I just have a quick 
question for Geraldine, and I beg my colleagues' indulgence.
    My colleague from Philadelphia, Mr. Boyle, has asked me a 
very profound question, I thought. He wanted to know, is there 
anything more that we could do as a government to investigate 
the de Silva report or the actions the British Government has 
taken so far? And I said, unfortunately, I don't think we can. 
I think the extent of what we can do is conduct hearings, as 
the Helsinki Commission is doing and as the Chairman does in 
his capacity on the Foreign Affairs Committee and elsewhere.
    But I'm wondering, Geraldine--and this is not the Irish 
Government's responsibility. I know they--that this is not 
their work. But in inquiry to you in terms of whether or not 
you think, is there a role for the Irish Government here in 
terms of having a formal review of the de Silva report as it 
pertains to Patrick? And is your--do you have a sense of what 
they can--is there something that they could do in terms of 
bringing more focus and attention to this case?
    Mrs. Finucane. Well, they were party to the agreement at 
Weston Park.
    Mr. Crowley. Yes. Mmm hmm.
    Mrs. Finucane. They are the other co-signatories. So it is 
vital--now that they have carried out their side of the 
bargain, I think it is vital that they push forward and hold 
the British Government to their side of the agreement.
    Before Bloody Sunday was actually announced, the Irish 
Government analyzed the situation and drew up a very 
influential report which was actually very strong in tipping 
the balance towards that inquiry taking place. It would be very 
helpful if they would do something similar in our case, 
analyzing the report to show----
    Mr. Crowley.--its deficiencies. Mmm hmm.
    Mrs. Finucane.----how lacking it is. And, you know, maybe 
the same thing can happen twice and that will tip the balance 
in our favor.
    Mr. Crowley. Well, I appreciate it.
    Maybe, Mr. Chairman, you and I and the others could put 
together a formal request to the Irish Government to do just 
that. I think it's a way in which we can be influential.
    So thank you, Mr.--and thank you to all of you for your 
testimony today. Unfortunately I do have to run, but I will get 
it all.
    Thank you, Chris.
    Mr. Smith. Thank you, Mr. Crowley.
    Professor McEvoy.

  PROFESSOR KIERAN McEVOY, QUEEN'S UNIVERSITY SCHOOL OF LAW, 
                   BELFAST, NORTHERN IRELAND

    Members of Congress, ladies and gentlemen, I am honored to 
be addressing you today. I have been asked by the Commission to 
specifically address a number of issues concerning dealing with 
the past and the dealing with the past elements of the Stormont 
House Agreement, namely origins, substance, politics, 
implementation, opportunities for accountability and justice, 
and reconciliation and peace. I have submitted quite a lengthy 
report and some appendices, which I'd respectfully request be 
written into the record, and I'll try to summarize this in 
seven or eight minutes.
    Mr. Smith. Without objection, your full statement will be 
made a part of the record.
    Mr. McKevoy. Great, thank you. Thank the Chairman.
    So the origins to the Stormont House Agreement and the 
elements of it in terms of dealing with the past. The Good 
Friday Agreement, unlike other similar peace agreements, did 
not contain an overarching mechanism to deal with the past. 
There was no truth commission or similar body created as a 
result of that. The negotiators at the time thought that we 
probably weren't ready for it, and perhaps we weren't. What has 
happened in the interim is that a piecemeal range of measures 
focused on the past have emerged--a patchwork quilt, if you 
like, of measures focused on the past, namely: a number of 
public inquiries--although, as Geraldine has testified, not in 
the murder of Pat Finucane; the creation and the work of the 
Office of the Police Ombudsman, which addresses allegations of 
police malfeasance, including during the conflict; the work of 
the police-based Historical Enquiries Team; and inquests into 
conflict-related deaths.
    The United Kingdom government has previously argued, 
particularly to the European Court of Human Rights, that these 
``package of measures,'' as they're referred--this patchwork 
quilt--cumulatively mean that the U.K.'s legal obligations 
under Article 2 of the European Convention of Human Rights to 
establish prompt, effective and independent mechanisms to 
investigate conflict-related deaths are being satisfied. 
There's now compelling evidence that, in fact, those legal 
obligations are not being satisfied under the ``package of 
measures.''
    So in terms of the substance of what's in the Stormont 
House Agreement, it's--the first thing to say is that the 
Stormont House Agreement is, in reality, ``Heads of 
Agreement.'' It is ``Heads of Agreement.'' The devil will be in 
the detail around the implementation of the Stormont House 
Agreement. The U.K. government plans to introduce legislation 
in Westminster in September/October of this year which--one Act 
which will contain all of the dealing with the past mechanisms. 
So the agreement itself only has five pages on dealing with the 
past, so the devil is in the detail.
    What it proposes is the creation of a Historical 
Investigations Unit, to be overseen by the Northern Ireland 
Policing Board. The Historical Investigations Unit will 
incorporate the current work being done by the Office of the 
Police Ombudsman and that work that was being done by the 
Historical Enquiries Team. Decisions on prosecution arising 
from this will remain the responsibility of the Director of 
Public Prosecutions. So that's the justice-focused elements of 
it.
    It also provides for the establishment of an Independent 
Commission on Information Retrieval, which is modeled on the 
Commission for the Disappeared, which works on both sides of 
the border--people who were murdered and their bodies 
disappeared by the IRA. And so this model draws explicitly on 
that version, that model. And in particular what it does is it 
provides mechanisms for people to give information, to provide 
closure for families, but people will be given guarantees of 
non-prosecution for the information that is provided. Now, if 
evidence or information arises from other sources, people may 
still be liable to be prosecuted. But the idea is that any 
information that is provided to that Commission, that evidence 
can't be used, so it's a form of limited immunity.
    The agreement also provides for the establishment of an 
Implementation and Reconciliation Group. Part of the 
responsibilities of that group will be to pull together themes 
arising out of the information that's provided with regard to 
the past. And in previous sets of negotiations, some themes 
have been suggested that might be looked at. These have 
included issues such as collusion, for example, or whether or 
not the IRA was engaged in a policy of ethnic cleansing of 
Protestants along the border and a range of others. But it'll 
be open to that group to decide what themes it wishes to 
examine.
    An Oral History Archive.
    There will be provision for some changes to legacy 
inquests. We're not clear what those changes are likely to be.
    And the document also says that in the context of the work 
of these other mechanisms, the U.K. and Irish Governments will 
consider statements of acknowledgement and would expect other 
actors to do the same.
    So there are a number of interacting elements to the thing.
    I've been asked to talk about the politics of it all. So, 
as I said, the first thing to say is that it's a political 
achievement to get an agreement even on the ``Heads of 
Agreement'' with the limitations that that means. We have been 
struggling with trying to find an overarching mechanism or 
series of mechanisms to deal with the past since the Good 
Friday Agreement. So even to get to where we're at is, from my 
perspective, a political achievement, and I think the 
negotiators deserve credit for that.
    Second, as I detailed in my paper and in another appendix, 
which is this document, the Apparatus of Impunity, which is a 
meticulous piece of work done by the Committee on the 
Administration of Justice [available at http://www.caj.org.uk], 
it is clear that there are elements of the state--and Geraldine 
has spoken very eloquently about this--which are determined to 
undermine, to frustrate and to delay efforts to deal with the 
past. The bona fides or otherwise of the other actors--the 
nonstate actors, the paramilitary organizations--has yet to be 
tested. We don't know. I mean, the only mechanism thus far 
where the bona fides of the paramilitaries has been tested has 
been the Commission for the Disappeared, and the staff of the 
Commission for the Disappeared speak very positively about the 
engagement of the IRA and the Republican movement with that 
process. But we don't really know whether the bona fides of the 
nonstate actors--we have to test it.
    Related to that, it's important to say that one element 
that's been missing from the Stormont House Agreement--unlike, 
for example, the Good Friday Agreement--is there has been on 
sustained effort to engage with and sustain the engagement of 
the loyalist paramilitaries or political actors close to the 
loyalist paramilitaries. Those political parties were heavily 
involved in the negotiations for the Good Friday Agreement, but 
they don't have a member of our local legislative assembly. And 
so we need to be creative and find ways of engaging the 
loyalists as well, because they too will be required to come 
forward and provide information retrieval and so forth.
    So that's the broader politics of it. As I say, in terms of 
implementation, legislation will be tabled in September. It 
depends what's in it.
    On the accountability focus mechanisms, the historical 
investigations unit, a number of points to make on that. First 
of all I think all of us have to be very responsible with 
victims not to oversell the potential for successful 
prosecutions. There are significant evidential and other 
difficulties associated with achieving historical 
prosecutions--lack of forensics, eyewitness evidence, the 
involvement of informers in lots of cases, which then ruins the 
potential for a prosecution.
    And in fairness to the former Chief Constable Sir Hugh Orde 
when he established the Historical Inquiries Team, he was very 
frank with victims about precisely that point, not overselling 
the potential for prosecutions. There have been a handful of 
non-state actors, but as the Committee on the Administration of 
Justice detailed in this--in the Apparatus of Impunity, there 
have been no successful prosecutions of state actors since 
1998. So that's--we shouldn't be overselling the product.
    The second thing to stress is that even if a successful 
prosecution is achieved under the terms of the Good Friday 
Agreement, people will only serve a maximum of two years, so--
regardless of the severity of the offense. So we have to be 
very careful about managing expectations, particularly when 
we're engaging with victims.
    Following the discrediting of the Historical Inquiries 
Team, the PSNI have established what they term a legacy 
investigations branch, albeit with a smaller budget and smaller 
personnel. So this is police-led--another version of a police-
led effort to deal with the past.
    As the joint House of Lords/House of Commons all-party 
Committee on Human Rights concluded last week, the legacy 
investigations branch cannot of itself satisfy the requirements 
of Article 2 and with the European Convention of Human Rights 
because of its lack of independence from the police force. So 
it's a new version of HIT with less budget and less personnel. 
And it is not independent and therefore it will fail to satisfy 
the requirements of Article 2.
    How do we deal with the issue on independence with regard 
to Historical Inquiries Team? I have come to the conclusion 
personally that we can only do this by keeping the former 
members of the RUC and PSNI completely away from this new 
structure.
    I was supportive of the Historical Inquiries Team. The 
model of the Historical Inquiries Team essentially was that you 
could have a police-led inquiry but create firewalls within the 
structures of the Historical Inquires Team and particularly in 
cases where there were allegations of collusion or state 
malfeasance and that you could protect the institution that 
way.
    And in fairness to the people who worked at the HIT, they 
did some excellent work--some excellent work, and brought some 
closure to some families. But the problem was that the 
structure of the firewall system did not work and it corroded 
public confidence in the Historical Inquiries Team. So in terms 
of the HIU for me, a redline issue is that we need to create a 
structure that doesn't involve the PSNI or the RUC personnel.
    There are a number of other aspects that are flagged in the 
Stormont House Agreement that I might go into in questions and 
answers about whether or not cases--how the mechanism about 
which cases that have been reviewed by the HIT can be opened 
and other details around former decisions that were made during 
the conflict on prosecutions and whether or not those can be 
looked at with new evidence.
    And another crucial issue I think on this that runs across 
these mechanisms is that, as has been documented, and again by 
my colleagues in the Committee on the Administration of 
Justice, there have been systemic efforts to destroy evidence, 
to obfuscate, to delay, to deny access through the inquest 
system, for example. And if we're serious about trying to stop 
that culture, we need to create sanctions within the 
legislation for the destruction of evidence or for people not 
properly maintaining the information.
    With regard to the Independent Commission for Information 
Retrieval, that element, there's very sparse detail in the 
Stormont House Agreement about that. And so again, the devil 
will be the detail on the legislation. What one would expect to 
see in that, however, the legislation will have to guarantee 
its independence from political interference, there is very 
little in the Stormont House Agreement about what powers this 
body would have and whether--how it would match Article 2 
requirements.
    The central issue for me about its effectiveness, however, 
will be the robustness of the guarantees of non-prosecution. 
And people are not going to come forward to provide information 
if they think they're liable to be prosecuted. So the 
robustness of the guarantees of non-prosecution, I think, for 
me, is the central issue anon.
    And so in conclusion--as I say, I can pick up some of these 
in Q&A--this is--it is formidable political achievement, the 
Stormont House Agreement and the past-related elements 
therefore in particular. And the devil will be in the detail, 
but if there is good--if there is sufficient political will and 
that is translated into robust legislation designed to maximize 
the effectiveness of these different mechanisms, then for me 
the Stormont House Agreement does provide a road map for making 
significant progress in dealing with the past.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Professor McEvoy.
    Ms. Cadwallader.

ANNE CADWALLADER, AUTHOR, ``LETHAL ALLIES: BRITISH COLLUSION IN 
                           IRELAND ''

    Ms. Cadwallader. [Off mic.] Good start. [Chuckles.] My name 
is Anne Cadwallader, and I'm a staff member of the Pat Finucane 
Centre. The focus of our work is investigating past British 
Government policy through the study of declassified archived 
documents and, equally as important, advocating for and 
assisting bereaved families as they search for the truth and 
seek accountability through engagement with official bodies, 
such as the Police Ombudsman and through the courts.
    As you are hearing, I am English, but I have lived and 
worked on both sides of the border in Ireland since 1981. I 
covered the conflict in Ireland and then the peace process on 
both sides of the border, first for the BBC in Belfast, then 
for the Irish Press, RTE, Reuters and many other media 
organizations.
    When I began working for the Pat Finucane Centre five years 
ago, the bulk of the research on which the book we published 
last year, ``Lethal Allies: British Collusion in Ireland,'' 
[available at the Pat Finucane Centre, http://
www.patfinucanecentre.org.] which I offer to the Committee for 
putting on the record, had been completed. I pay tribute to my 
colleagues in the PFC, particularly to Alan Brecknell whose own 
father was one of those killed, and to Justice for the 
Forgotten in Dublin, for their disciplined, determined and 
intelligent work over the 15 years it took to reveal the facts 
on which the book is based.
    Last week, I sat beside a woman in County Armagh who had 
been blinded in one eye in a loyalist bomb explosion. She had 
been chatting to a friend about her upcoming marriage when the 
bomb exploded. But at least it spared her life and that of the 
unborn son she was carrying. Alas, he also became a random 
victim of violence, shot dead at the age of 17 during a break 
in his studies in Armagh City. Nearly 20 years separate the two 
events, but they have the policy of collusion in common.
    The same bomb explosion also killed a young mother of three 
boys, Elizabeth McDonald. Her four-year-old son was blown out 
of his cot and found in the rubble crying over her body. Across 
the street, another mother was cradling a dying son, Gerard 
McGleenan, age 23. His heart had been pierced by a long, sharp 
piece of the shattered bomb car.
    What makes these heartbreaking stories different is that we 
can show definitively that the bomb was made, transported and 
detonated with the active involvement of members both of the 
Royal Ulster Constabulary, the police, and the British Army. We 
know this because investigators have found a paper trail that 
establishes it without a shadow of a doubt. To this day, 
though, no one in authority has ever gone to any of the 
bereaved families or the injured to acknowledge the state's 
involvement in these horrific crimes.
    When officers, selected for their independence of the RUC 
in the Historical Inquiries Team, found the paper trail and 
finally informed the families--three decades on--you can 
imagine their deep shock. Since we first published the details 
in ``Lethal Allies,'' however, there's been the most deafening 
silence from London about these and 120 other murders in the 
same series perpetrated in both jurisdictions in Ireland.
    Two days ago, Crown lawyers failed to meet a deadline to 
respond to lawyers acting for some of the bereaved families. 
Those in authority in London would be well-advised to 
reconsider because the families are not going away, and neither 
are their lawyers. Truth delayed is truth denied. We, along 
with other human rights NGOs in Ireland--including Justice for 
the Forgotten, Amnesty International, the Committee on the 
Administration of Justice and Relatives for Justice--now demand 
that London learn that facing up to the truth is the right 
thing to do.
    The British Prime Minister David Cameron apologized for the 
British Army's shooting of 14 people on Bloody Sunday. The sky 
did not fall in. The Irish Government acknowledge, albeit on 
the basis of very scanty evidence, that the Irish police force, 
the Garda, colluded with the IRA murders of two RUC officers, 
Robert Buchanan and Harry Breen, in 1989. But for the families 
we represent, there has been no acknowledgement, no truth--just 
an enduring silence.
    Collusion is a word that has sometimes been used as a 
political battering ram, but it was a tactic used by the RUC 
and British military intelligence to manipulate and control 
both sides throughout the recent conflict. It has many forms. 
In 1972, the worst year of the conflict, the general officer 
commanding the British Army in Northern Ireland, while 
recognizing the UDA sectarian threat, nevertheless said 
soldiers should ignore UDA patrolling and barricading of 
Protestant areas, which could be almost entirely secured, he 
said, by a combination of UDA, Orange volunteers and RUC. The 
military, he said, could turn a blind eye to UDA arms when 
confined to their own areas.
    After the Dublin/Monaghan bombings, in which 34 people 
including an unborn child perished, it took the form of the 
British Government deciding not to share information on the 
bombers with the Irish Government, as it could embarrass the 
Crown. After the 1971 bombing of McGurk's Bar in which 15 died, 
collusion took the form of a dishonorable attempt by the police 
and British Army to blame the victims, a claim that the bomb 
was an IRA own-goal.
    There's hard evidence that the gang who attacked a bar in 
Loughinisland, shooting dead six men as they watched Ireland 
play Italy in New York during the 1994 World Cup, included at 
least one informer whose identity was protected. The RUC 
destroyed the getaway car, thus disposing of vital forensic 
evidence. The Police Ombudsman in Northern Ireland has reported 
that the RUC used members of a hardened UVF gang in North 
Belfast responsible for at least 20 murders as informers.
    Each and every bit of the truth is being dragged out piece 
by piece. Collusion was not restricted, though, to the 
manipulation of loyalists. British intelligence agencies used 
republican informers, such as Freddie Scappaticci, allowing 
them to murder at will to maintain their cover within their 
paramilitary ranks. London is refusing, so far, to admit its 
role, in our view, because if it does it will tear aside the 
polite fiction that successive British governments were merely 
neutral umpires during 35 violent years.
    The excuse is sometimes made privately that in the face of 
a determined and bloody armed insurrection, such as that 
mounted by the IRA, impartial administration of the rule of law 
has to be compromised. We contend that at a time of civil 
strife, it is even more important that the law be upheld 
without fear or favor, and that the principle that no one is 
above the law is implemented in full. Once you tailor the means 
to meet the ends, no matter how laudable, you're on a slippery 
slope.
    We contend that London went down that slippery slope during 
the 35-year civil conflict in Northern Ireland, and that this 
rendered the British state culpable for at least part of the 
loss of life, the grief, the waste, the agony that the people 
of Northern Ireland suffered.
    The nature of the collusion the PFC examined over the last 
15 years, that of the 1970s, was of a less structured and 
targeted nature than the same policies during the '80s and 
'90s, when British double agents and others imported arms into 
Northern Ireland, substantially increasing the loyalist kill 
rate, and murdering Pat Finucane amongst others. The recent 
review by Sir Desmond de Silva into his murder concluded that 
85 percent of all the intelligence available to loyalists came 
from within the police or the military.
    Collusion fueled the conflict, leading to the deaths also 
of many police officers and soldiers, as well as civilians both 
Protestant and Catholic. Collusion was a no-win policy--
illegal, unethical and ineffective. My colleagues and I have 
discovered hundreds of documents in the British National 
Archives which establish beyond any reasonable doubt that 
London knew from a very early stage that in setting up the 
Ulster Defense Regiment, the UDR, it was establishing a pool of 
trained killers with access to an unlimited source of modern 
and deadly weapons.
    In the murders we examined in ``Lethal Allies,'' the aim 
seems to have been to terrorize the Catholic nationalist 
community into lowering its political, constitutional and 
economic aspirations. With one exception, all those targeted in 
the series of murders we examined were civilian non-combatants. 
They were shopkeepers, publicans, farmers, small businessmen. 
Nine were members of the moderate SDLP and many had close links 
to the Gaelic Athletic Association.
    We are, today, placing on the record here at Congress some 
of the declassified documents we've uncovered from the British 
and Irish National Archives [available through the Pat Finucane 
Centre, http://www.patfinucanecentre.org.]. We invite members 
of Congress to read them. Mrs. Thatcher, for example, even 
before she was elected prime minister, was quite clearly 
informed that the largest regiment in the British Army, the 
UDR, was heavily infiltrated by loyalists and that in a crisis 
could not be relied upon to follow orders. We know from the 
words of a secret British document that the UDR was the sole 
source of the heavy-duty modern weapons used to orphan so many 
children. And London accepted that between 5 and 15 percent of 
the entire regiment were active loyalists.
    Most of the families for whom we advocate realize that 
seeing anyone brought to court for the crimes described here is 
beyond their reach. With a few exceptions, they are not what I 
would call bitter or recriminatory. They are, however, full of 
a steely determination that the truth should be told, that the 
shadowy figures whose names they don't know and probably never 
will should be held at least collectively accountable.
    We thank Congress for its continuing interest and hope by 
this time next year there'll be progress towards reconciliation 
in Ireland. It may even be that these and other revelations 
will show both sides they have more in common than they 
thought. Thank you.
    Mr. Smith. Thank you very much for your testimony, Ms. 
Cadwallader.
    And I'd like to begin the questioning, first to you, 
Professor McEvoy. In her testimony just a few moments ago, 
Geraldine Finucane pointed out that the de Silva's review--she 
called it a sham and a whitewash.
    But she pointed out that the report is based on a reading 
of documents without any questioning of the authors. Only 11 
witnesses were spoken to by de Silva and 12 written submissions 
were received. Amazingly, no politicians were interviewed, nor 
were a number of key intelligence personnel, including the 
former head of military intelligence in Northern Ireland in 
charge at the time of Pat's murder. He wasn't interviewed 
either.
    It seems to me that if you want to get a report that leads 
to a conclusion that is preordained, you simply don't interview 
the men and women who either had a direct role or had knowledge 
of Pat Finucane's murder. That's a whitewash. What is your view 
on that?
    Mr. McEvoy. I mean, I agree, Mr. Chairman. I think that the 
difficulty is that in any kind inquiry into the truth, you need 
to be able to cross-examine the individuals concerned. So a 
review of the paperwork is simply not going to deliver truth 
because we--you need to be able--that is why we have the 
tradition of cross-examination. Cross-examining the individuals 
involved is the route to truth recovery. So I agree very 
strongly with Geraldine's critique of the de Silva review.
    Mr. Smith. How well-protected--this would be to all of you 
or anyone who would like to take it--how well-protected and 
preserved or at risk is the physical evidence concerning the 
details, including collusion, in the assassination of Pat 
Finucane? I mean, has it all been shredded by now, deleted, 
burnt?
    Ms. Cadwallader. There is an RUC secure archive outside the 
town of Carrickfergus kept under lock and key. We don't know if 
anyone is managing to get access to it. What's happening in 
there is one of the key concerns we have. We also have concerns 
about any role that the RUC/PSNI might have in being a 
gatekeeper to that information. Will any new hopefully 
independent Historical Investigations Unit have some barrier, 
some gatekeeper between its wish to find out the truth and 
those who have control over that archive outside Carrickfergus? 
We don't know.
    We do know that many documents were held in Gough Barracks 
in Armagh and were destroyed because of a problem allegedly 
with asbestos, although when I phoned up three different 
companies in London, in Britain, and asked all of them 
independently if they were capable of cleaning documents 
contaminated with asbestos, all three companies immediately 
told me indeed they were and could have done so. Alas, they 
will never get the chance because the documents have already 
been destroyed. And many families now will never find the truth 
about their loved ones as a result.
    Mr. Smith. Professor McEvoy, you said that the Stormont 
House Agreement may constitute a significant historical 
achievement, but the devil was in the details. How will the 
establishment of the HIU contribute to unearthing the 
information concerning Pat Finucane's murder?
    Mr. McEvoy. I mean, I simply don't know at this stage, Mr. 
Chairman. I think that all we can do at this stage is to seek 
to maximize the independence and the effectiveness of the HIU 
in terms of the legislation. What myself and colleagues at the 
Committee on the Administration of Justice are doing, as I said 
earlier, the British Government put on the table legislation in 
September. They will have a draft bill available in June.
    What we are doing is we're going to draft our own bill and 
use that as a tool for public conversation. And if there are 
gaps around the robustness, for example, of the HIU and its 
independence, then at least people will see what those gaps are 
on the Finucane case. Geraldine herself may have a comment on 
that. It's very hard to judge at this stage whether it can make 
a significant contribution on that. The obvious way to make a 
significant contribution in finding out the truth about what 
happened to Pat Finucane is to have the public inquiry that was 
promised at Weston Park.
    Mr. Smith. Are there any sanctions in law? Are they 
enforced against the obstruction of justice, the destruction of 
physical evidence?
    Mr. McEvoy. That's exactly one of the things--one of the 
sections we want written into the new legislation.
    Mr. Smith. So there isn't currently?
    Mr. McEvoy. It's not sufficiently covered at the moment. 
And there is space for exactly--I mean, the excuses answered 
around Gough Barracks. That should never, ever have happened, 
obviously. And so what any society that's trying to take truth 
recovery seriously does is, you create proper criminal 
sanctions for the destruction or failure to maintain evidence. 
So that's got to be written into the new legislation.
    Mr. Smith. The U.K. Parliament's own Joint Committee on 
Human Rights issued a report that acknowledges progress, but 
warned that the failure to carry through on obligations and 
international commitments, including investigations into lethal 
force cases that occurred in the 1980s and 1990 is, quote, 
tarnishing U.K.'s international reputation. Let me just add 
exclamation points behind the tarnishing.
    I have been amazed--I have been in Congress 35 years and 
spend much of my time working on human rights issues everywhere 
in the world, including in Northern Ireland. I brought up the 
issue of collusion at a parliamentary assembly. Robert Aderholt 
is the vice president of the OSCE Parliamentary Assembly. I 
serve as special representative on human trafficking.
    Well, several years ago I brought up a resolution. And the 
U.K. members of parliament were outraged that they would be 
held to account in a public fora, like the OSCE PA, on that 
issue. I want the issue to be clearly stated: The reputation is 
already tarnished and will continue to be so, so long as the 
information that is desperately needed and required to say who 
knew what, when, and what did they do about Pat Finucane's 
assassination.
    It is bewildering how a mature democracy like the United 
Kingdom could be so obstinate in not letting this information 
out, unless it goes so high that people would be implicated 
that would be at the very top echelon of the government of that 
country. So I am very concerned. It is already being tarnished 
and I hope that they will take a cue. We're not going to let up 
on this Commission. The Foreign Affairs Committee, the 
Congress--the House and Senate--will not let up until all of 
the information is laid bare, clear and unmistakable, and 
people are held to account.
    Mr. Boyle. Well, thank you. I just have a comment and then 
two specific questions. First, as you may have heard and might 
notice, there isn't too much on Capitol Hill that unites 
Democrats and Republicans in this building. It is really 
striking that this issue is one of those things that unites 
Republican members and Democratic members. And I think that 
should be noticed in London, in Dublin, in Belfast and in 
Brussels.
    As for my questions--first, I'm a great admirer of your 
work over many years. And I know in the legal profession you 
certainly could be taking on cases that would be easier and far 
more profitable. So it's a testament to who you are that you 
would take on this work for so many years.
    I wanted to ask you specifically in the Finucane case and 
more broadly, what does the evidence in the archives show, 
specifically about the very top in the 1980s when, as you 
pointed out, it seemed as if there was more structured 
collusion than the 1970s? Margaret Thatcher was British prime 
minister during that entire time. What does the record show 
specifically in this case or in others about what she knew and 
authorized?
    Ms. Cadwallader. Well, we have a problem inasmuch as 
there's a 30-year rule. So we don't get access to the papers 
until they're released. There is also--
    Mr. Boyle. We're up to about 1985 then at this point.
    Ms. Cadwallader. Yes. There is another problem, which is 
that--and it's a very familiar one--which is that we work in 
Belfast. And if we want to go to London to look at the papers 
in the National Archives in queue, we have to pay for our 
airfares and our sustenance in London. And I have to say, it is 
only thanks to American organizations such as the AOH and the 
Irish-American Unity Conference and other private donations 
from Americans--and it is largely Americans--that allows us to 
do this important work.
    And we do go across and we photograph as fast as we can as 
many documents as we can. And then we bring them back to 
Belfast and Derry and we try to analyze them and learn from 
them. There is--we haven't been able to go for the last maybe 
two years, I think, we haven't been able to afford to go over 
to London to do that work. It simply is not being done at the 
moment. And if we don't do it, I don't know who else will. But 
we are--obviously we would hope to do that. And we would be 
very interested to find out what was going on during the 1980s.
    Another problem, of course, is that eventually there won't 
be any more paper records. They'll all be digitalized. And it's 
so much easier to press a button and destroy information on a 
computer than it is to go around and pick up all the copies 
that were sent round to various departments and destroy all of 
them. Even when we do go across to London, despite the amazing 
and shocking revelations that we have managed to uncover, there 
are some documents that are--have either been destroyed or are 
under a 50- or a 75-year rule.
    So we are limited in what we can do. But I can assure you 
we take it very seriously because we are interested in facts, 
not in speculation or rumor. And we will continue to do as much 
as we can with the resources at our disposal. And I--it doesn't 
answer your question, but I'm sorry it's all I can say.
    Mr. Boyle. That was the answer, yeah.
    My next question--actually, last question before a final 
comment--is I'm wondering what specifically--you referenced the 
apology that current Prime Minister David Cameron gave on the 
floor of the House of Parliament with respect to Bloody Sunday. 
I was wondering what specifically the Prime Minister has said 
to you or any senior British officials may have said to you.
    Mrs. Finucane. When the Prime Minister invited us over to 
London, we had been conducting a series of meetings between 
legal teams. And during those meetings, which were to try and 
decide how we could both move forward together, there was a 
suggestion made by the government's team that our inquiry could 
follow along the lines of an inquiry that did take place under 
the new Inquiries Act of Baha Mousa, who was a worker in Iraq 
that was killed by soldiers.
    Now, prior to that inquiry taking place, a protocol was put 
in place whereby the government agreed not to interfere with 
the panel. We said we could go with that. That is exactly what 
we wanted, an independent panel whereby we could have a fair 
chance of getting to the truth. That was the last meeting we 
had. It was in May. We were asked to come to Downing Street in 
September/October. And the Prime Minister told us that we would 
be happy with what we would hear. And that was when he 
announced that there would be a review of the papers. Now, 
something happened between the last meeting when they were 
offering us an inquiry and the announcement that there would be 
another paper review.
    Totally unsatisfactory--a closed shop, no cross-examining, 
no witnesses, no participation--nothing. And the Prime Minister 
apologized for the collusion, which we welcomed. He stood up in 
Parliament and apologized. But as my son said to me at the 
time, it's like you coming to me and saying, I want to 
apologize to you. And I say, what do you want to apologize for? 
And you'd say, well, I can't tell you. It's very serious, but I 
can't tell you. Believe me, I'm really, really sorry. And 
that's a very simple explanation of the whole situation.
    Mr. Boyle. You--your last comment there pre-empted almost 
verbatim what I was going to say. I can't ever remember giving 
someone an apology where I said I can't exactly tell you all 
that I'm apologizing for, but believe me I'm really sorry.
    Mrs. Finucane. Yeah.
    Mr. Boyle. Oh, what's that? You want more information? Oh, 
that would be too embarrassing. Did he at least apologize for 
not giving you more information? What that also part of the 
apology, or was--
    Mrs. Finucane. [Chuckles.] No. We didn't get even that far.
    Mr. Boyle. Well, I would just say in closing, as a member 
of this committee and a member of Congress, and one with--as 
has been pointed out to me by a few folks this week, a pretty 
identifiably and proudly so Irish surname, I take no great joy 
in asking these questions. Britain is an important ally to the 
United States, is with us on so many things.
    So it gives me no joy or pleasure to point out some of the 
disgraceful facts as it relates to collusion between successive 
British governments and the paramilitaries in Northern Ireland. 
And I think that it is incumbent upon them to fully come clean 
and finally set the record straight so that we can finally, all 
of us, move forward in a future that is full of peace and 
justice for all. Thank you.
    Mr. Smith. Boyle, thank you very much. I'd like to yield to 
Mr. Aderholt.

HON. ROBERT ADERHOLT, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Well, thank you, Mr. Chairman. And as the Chairman and I 
were talking on the floor during the votes--I know we were 
supposed to start this hearing then, so y'all were sort of in a 
holding period there for a while. And we apologize for some way 
the schedules work here and we go between meetings and--
committee meetings constantly. So I apologize for my being late 
here this afternoon.
    But I did want to just ask one question in particular. Of 
course, last fall I think many of us here in Washington and 
probably other parts of the United States watched with real 
interest the referendum in Scotland and what the outcome would 
exactly be. It was very fascinating to try to predict what that 
was going to be. But did the referendum in Scotland have any 
impact on the dialogue about Northern Ireland's future in terms 
of the debate that is encouraged throughout the country? And 
did the potential for major change in the United Kingdom occur? 
Just any one of you. I'll just open it up for your thoughts on 
that.
    Mr. McEvoy. I think one of the consequences--I mean, the 
debate in Scotland was followed very closely by people in 
Northern Ireland. And I think one of the consequences were that 
it made members of the unionist community in particular quite 
nervous, because at one stage it looked, the way the polls were 
going, like you were looking at a breakup of the United 
Kingdom.
    And that made some of the negotiations more difficult 
because members of the unionist community and therefore 
unionist politicians--that nervousness was reflected, I think, 
in the local politics. So certainly I think a lot of--for 
members of the unionist community who hold the union dear and 
were hugely relieved at the turnaround and the fact that the--
that the U.K. remained intact. But it did have an impact, 
certainly, Congressman, in the local negotiations and in making 
some of our unionist politicians more nervous.
    Mr. Aderholt. What--you know, of course, there's numerous 
criticism by people in Northern Ireland on the performance of 
the U.K. government, as we've talked about here this afternoon. 
But how do people elsewhere in the U.K. feel about these 
issues?
    Ms. Cadwallader. If you asked a hundred people on the 
streets of Britain what was the role of their country during 
the conflict in Northern Ireland, I'm not a gambling person, 
but I would bet about 95 percent, possibly more, would say that 
their government acted honorably and acted as an impartial 
mediator between two sectarian, irrational, warring 
religiously--religious tribes. That is the extent of the lack 
of knowledge--
    Mr. Aderholt. You said on the streets of London if you 
asked this question? What about in other parts of the U.K.?
    Ms. Cadwallader. I would say the same in other parts of the 
U.K.
    Mr. Aderholt. Same thing?
    Ms. Cadwallader. I have family obviously still living in 
England. I travel across from time to time. And I'm afraid that 
such is the failure of the British press to inform their people 
about the true nature of the conflict in Northern Ireland that 
95 percent would say that their country--successive governments 
acted honorably as impartial arbiters between two sectarian, 
warring tribes. It gives me no pleasure to say that.
    Mr. Aderholt. Yeah.
    Mr. McEvoy. I think, Congressman--one of the points I think 
that's important to stress is we talked rightly--and Chairman 
Smith talked rightly about the relationship between truth and 
relationship between Irish people and British people and also 
within the communities. But the process of seeking truth about 
what happened during the conflict in Northern Ireland isn't 
simply an esoteric or an academic exercise.
    It actually has important consequences for British 
democracy because what we see is that techniques that were 
utilized in Northern Ireland by the British Army were also then 
used in Iraq and Afghanistan. And you know, institutions--
unless you have a process--an organized process of truth 
recovery and of looking at how things went awry or how things 
were planned and went awry, and you repeat the same errors. You 
repeat the same mistakes. So it's not--it actually has 
significant consequences for the nature of British democracy to 
have a grown-up conversation about what went on in the conflict 
in Northern Ireland. I think Anne is right, a lot of British 
people don't know.
    So part of--and on a good day, when I'm feeling 
optimistic--part of what I hope will come out of the past-
focused mechanisms in the Stormont House Agreement will be a 
grown-up conversation amongst British people themselves about 
what went on, and how was that happening on our doorstep as 
part of the United Kingdom? How did we not know? So it's not 
just important for us. It's not just important for Irish 
people. It's actually important for British people and British 
democracy as well, I think.
    Mr. Aderholt. Well, thank you. And I--as has been said here 
this afternoon, you know, the U.K. has been a great friend to 
the United States, but I think it's certainly important for us 
to hear from you and to understand this. And I thank the 
Chairman for having this hearing.
    Mr. Smith. Thank you very much, Chairman.
    Let me--just before I go to a couple of final questions, I 
do want to acknowledge and thank a number of local Irish-
American leaders from my district who have been for decades--
multi-decades working to promote peace, reconciliation and 
especially justice in the north of Ireland. And they're here 
today. That's Michael Glass, Jim McFarlane, Malachy McAllister, 
Sean Pender--who, Ms. Cadwallader, is the president of the New 
Jersey AOH--and Kevin Meara, a Hamilton Township councilman.
    They have played a pivotal role. We have met for years, 
decades. They have provided me and this Commission tremendous 
insights and direction. And I want to thank them publicly for 
their leadership over these many years. They have been 
absolutely tenacious in insisting on justice, including and 
especially in Pat Finucane's case.
    If I could ask a question--last year we heard testimony, 
including from Eugene Devlin, now living in New Jersey, about 
murders committed by an out-of-uniform British unit called the 
MRF. Former MRF members admitted shooting innocent people in 
order to terrorize the Irish population. That was in 1972. One 
of those that they shot was Eugene Devlin, who survived that 
attempt on his life. How has the British Government 
investigated the on-camera admissions of its former soldiers? 
Ms. Cadwallader.
    Ms. Cadwallader. Well, again, I'm sorry to say, it gives me 
no pleasure to tell you, that this new branch that has been set 
up within the Police Services of Northern Ireland, the Legacy 
Investigation Branch, which as Kieran McEvoy has so eloquently 
pointed out has absolutely no status--independent status. It 
has taken over investigating the MRF cases.
    The families of those victims, of course, are very unhappy 
that the LIB, the Legacy Investigation Branch, has taken it 
over because they want an independent investigation into the 
programs, into Panorama--BBC Panorama programs, revelations 
about the MRF. And so they're very unhappy. It's worse than 
nothing. They would rather nobody investigated than the PSNI 
investigated. They would want the new Historical Investigations 
Unit, which hopefully will be set up, to be able to look at it 
independently. So it's worse than nothing.
    Mr. McEvoy. Can I just come in that one as well, Mr. 
Chairman?
    Mr. Smith. Yes, of course.
    Mr. McEvoy. One of the concerns that a number of us have is 
that the Legacy--if the LIB does its work and then in front of 
Commons closes a case, and not to the satisfaction of the 
family, what's the mechanism by which--and we might have the 
hopefully properly independent Historical Investigations Unit 
reopen a case where families are unhappy about a non-Article 2 
compliant style of investigation.
    So that again is a very important redline issue in terms of 
the legislation. How do we reopen cases because, I mean, we 
don't know what's going to happen. What we don't want is an 
unseemly rush of LIB cases getting processed before the HIU 
gets up and running because that they will undermine the 
credibility of the HIU before it even begins to work. So it's a 
very important aspect of the case.
    Mr. Smith. Is there anything any of you would like to add 
before we conclude?
    Well, again, I want to thank you for, again, your courage. 
Geraldine Finucane, I mean, to be face-to-face with the prime 
minister, be told that the information was going to bring some 
sense of closure only to be disappointed again--very few people 
would then publicly and so courageously tell the world of that 
disappointment. Most people, I think, would say, well, they did 
what they could and now we're turning the page. You know they 
didn't do all that they could do. There's much in the files 
that needs to be revealed. And justice delayed is justice 
denied. This has been delayed for almost three decades and now 
it's time.
    So I want to just recommit myself, this Commission, the 
Commission on Security and Cooperation for Europe. You heard 
from my colleagues on the other side of the aisle. There is 
good, strong bipartisanship here. We are not going to let up. 
And of course, the way the Pat Finucane case is resolved 
finally and people held to account will really reveal how all 
the others will be dealt with as well. And it's about time the 
British Government came clean on this and ended the sham--the 
whitewash, as you put it so eloquently, Ms. Finucane. And we 
will not cease in our efforts here in Washington to get to the 
truth.
    So I want to thank you again. The hearing is adjourned.
    [Whereupon, at 4:07 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Welcome to everyone joining us today, especially our witnesses, all 
of whom are joining us from Northern Ireland. We thank you for giving 
us the opportunity to hear from you about ongoing efforts for 
accountability, justice, and reconciliation in Northern Ireland.
    This is the 15th hearing I have chaired on human rights in Northern 
Ireland--the first one was in 1997--and many of my colleagues on the 
Commission and with us today have joined us for many of these hearings. 
This is to say--many of us in Congress care deeply about these issues, 
follow them regularly, and will continue to do so.
    In December 2014, the parties of the Northern Ireland Executive and 
the governments of the United Kingdom and the Republic of Ireland 
approved the ``Stormont House Agreement,'' with commitments for 
``dealing with the past''--that is, addressing crimes and the 
consequences of crimes of ``the Troubles.'' Other provisions address 
government reform and other controversial issues. And the British 
government committed to funding new structures deal with conflict-
related crimes and assist victims of ``the Troubles.''
    Today we look forward to hearing about steps to implement the 
Stormont House Agreement, and prospects for full, unfettered 
realization of processes to hold those who committed crimes accountable 
and finally provide a measure of justice to victims and their families.
    We also look forward to learning about increasing revelations of 
government collusion in crimes committed by paramilitaries. For years 
British officials denied collusion in crimes committed by 
paramilitaries. In recent years evidence has mounted that its security 
services enabled or had advance knowledge of a substantial number of 
paramilitary murders. We hope to find out what the British government 
has done in response. Is it on track to holding itself accountable?
    One particularly shocking instance of collusion was the 1989 murder 
of human rights lawyer Patrick Finucane. The Good Friday Agreement of 
1998--one of the outstanding diplomatic achievements of recent 
decades--left a number of issues unresolved, including the issue of 
British collusion in paramilitary crimes. In 2001 the British and Irish 
Governments dealt with this in negotiations at Weston Park. There the 
British Government assumed a solemn obligation to initiate a full, 
independent, public, judicial inquiry into the Finucane murder and five 
other crimes if so recommended by retired Canadian Supreme Court 
Justice Peter Cory.
    On May 5, 2004, Justice Cory did recommend a public inquiry in the 
case of Patrick Finucane. He released this recommendation at a public 
hearing of this commission. To date, the Finucane murder remains the 
only case Judge Cory investigated where his recommendation has not been 
honored. This is deeply unsatisfactory for many reasons but not least 
because it is evidently the one where the British Government is most 
culpable.
    The Finucane murder is also the case in which--until the Prime 
Minister's apology in December 2011--there has been the greatest level 
of sustained official denial and obstruction by various state agencies. 
Obstruction went to such a point that, rather than provide the promised 
inquiry, in 2004 the British government prepared new legislation 
governing inquiries. This would allow the government to withhold 
evidence from the inquiry process.
    The Finucane family rightfully declined to accept such an inquiry. 
And Judge Cory wrote a letter to me in which he stated: ``The proposed 
new Act would make a meaningful inquiry impossible. The commissions 
would be working in an impossible situation. For example, the Minister, 
the actions of whose ministry was to be reviewed by the public inquiry 
would have the authority to thwart the efforts of the inquiry at every 
step. It really creates an intolerable Alice in Wonderland situation.''
    Though in 2012 Prime Minister Cameron admitted to ``shocking'' 
levels of collusion between the state and loyalist paramilitaries in 
the murder of Patrick Finucane, this does not substitute for a full 
exposition of the facts behind the British State's involvement in the 
murder. Rather the steady increase in the amount of evidence being 
revealed publicly that senior officials the British State colluded in 
the murder has made honoring that commitment more important than ever.
    The many previous denials and time that has passed in the Finucane 
case have drained public confidence in the peace process and diminished 
respect for the rule of law in Northern Ireland. It must be said that 
there are those who oppose the peace process and their opposition is 
dangerous. The failure to address the case of Patrick Finucane in the 
manner promised by the British Government provides a readily available 
propaganda tool for those who would abuse it to further their own ends.

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    I want to commend the Chairman for convening today's hearing. 
Developments related to the peace process in Northern Ireland have been 
of deep and ongoing concern to the United States of America, and we 
want to see continued progress. Our historic bonds to the peoples of 
Britain and Ireland, I believe, will ensure that we will remain 
actively engaged, encouraging all parties to find the will and 
resources to achieve true, self-sustaining peace. The Stormont House 
Agreement of December 2014 is the latest step to be taken, and focus 
should now be on its implementation. I look forward to the views of our 
witnesses on this matter.
    At the Commission's first hearing of the year, last month with the 
Serbian Foreign Minister serving as the 2015 OSCE Chair-in-Office, I 
noted that the work of this Helsinki Commission is often about raising 
individual cases. In that context, I raised the lack of justice for the 
three Albanian-American Bytyqi brothers, who were murdered, execution-
style, by Serbian Interior Ministry forces in 1999. The clear lack of 
justice in that case not only perpetuates the hurt felt by surviving 
friends and family. It also denies Serbia the ability to confront a 
dark time in its history and to put the past behind it. It allows a 
degree of distrust between neighboring communities and peoples to 
linger. It is a single case, but one which reverberates.
    In that same sense, as well as in the senseless brutality of the 
crime, the lack of a public inquiry in the 1989 murder of lawyer 
Patrick Finucane--in his home, in front of his wife and children--is 
strikingly similar. A key promise, that of the British Government to 
conduct public inquiries into recommended cases where collusion is 
suspected, has yet to be fulfilled in regard to the Patrick Finucane 
murder.
    Going back to the original recommendation of the internationally 
respected jurist and former Canadian Supreme Court Justice Peter Cory, 
who testified before this Commission in 2004, the decision not to 
proceed with a Public Inquiry is more than a source of enormous 
frustration to the Finucane family. It reverberates throughout Northern 
Ireland, leading some to question London's true commitment to peace and 
reconciliation. All the other positive steps taken in the past two 
decades make me believe the answer to that question is ``yes,'' but it 
is understandably difficult for those whose trust London must still win 
to be confident about this when faced with such a glaringly deliberate 
avoidance of the truth. I therefore stand with them.
    In my view, if London agreed to abide by a recommendation, and if 
the recommendation was for a formal Public Inquiry, then nothing 
falling short of that will ever prove adequate. If there are reasons 
why a Public Inquiry is such a serious challenge to conduct, those very 
reasons may themselves make it not just a recommendation, but a 
necessity for the United Kingdom itself, to conduct such a Public 
Inquiry.
    If one looks at the Helsinki Commission's record over time, I 
believe a sincere attempt emerges to advocate human rights, democracy 
and the rule-of-law in U.S. policy as even handedly as possible, toward 
the closest friend, the most dangerous foe, and everyone in between. 
The fact that the United Kingdom is a close friend and a critical ally 
should not keep us from raising an injustice when it occurs. The 
Commission, indeed, takes seriously the heartfelt concerns of many in 
Europe, including our British colleagues, regarding the United States 
record, be it the Guantanamo Bay detention facility, capital 
punishment, our electoral process and lingering manifestations of 
racism and discrimination. Many of us, in fact, share some of those 
same concerns. We want action, too.
    I believe that we need to remain consistent in our approach to 
human rights, criticizing not only the United Kingdom but other friends 
and some NATO allies that are falling short on their OSCE commitments, 
in some recent cases increasingly more so. I similarly hope that the 
British Government will consider the concerns raised in this hearing as 
credible and genuine, and that it will respond in a way that should 
bring greater satisfaction to all.

          Prepared Statement of Secretary of State John Kerry

October 21, 2014

1Senator Gary Hart to Play Diplomatic Role for State Department

    I have asked Senator Gary Hart, one of our country's most respected 
and accomplished senior statesmen, creative and strategic thinkers, and 
my longtime friend who has been working with the State Department for 
close to two years, to also play a direct, on-the-ground diplomatic 
role.
    Whether it's through his 12 years in the Senate, or his work on the 
U.S. Commission on National Security in the 21st Century, Gary is known 
as a problem-solver, a brilliant analyst, and someone capable of 
thinking at once tactically, strategically, and practically. He's been 
engaged already in the intellectual side of our government's foreign 
policy during this Administration, whether as chairman of the State 
Department's International Security Advisory Board, or as chairman of 
the Threat Reduction Advisory Council at the Department of Defense. Now 
we're fortunate that he's agreed to devote some additional time to 
engage in the tough and patient work of diplomacy as my Personal 
Representative, including on issues related to Northern Ireland. He 
does so with my confidence and trust.
    Senator Hart has spent many weeks in Ireland and Northern Ireland 
over the past 30 years. He has listened and spoken to the people of 
Northern Ireland, and he knows many of the leaders. I've asked Senator 
Hart to support the parties in Northern Ireland as they enter a new 
round of talks to achieve a lasting peace. We welcome these new talks, 
supported by the United Kingdom and Ireland. I am confident Senator 
Hart will help the parties strengthen the institutions and economy of 
Northern Ireland, as well as reinvigorate efforts to promote a shared 
society. Our Consul General in Belfast Greg Burton will serve as 
Senator Hart's deputy for his Northern Ireland work. Senator Hart 
expects to visit Belfast before the end of the month.

December 23, 2014

Success of Northern Ireland Talks

    The United States warmly welcomes that announcement today of an 
agreement among Northern Ireland's political parties, facilitated by 
the UK and Irish governments.
    This is statesmanship, pure and simple, and leadership by all 
parties to break a political impasse and avoid a fiscal crisis by 
resolving complex budgetary and welfare issues. The agreement reforms 
institutional arrangements, which will improve governance in Northern 
Ireland, and advances Northern Ireland's peace process by establishing 
new institutions to deal with the often divisive legacy of the past - 
including a Historical Investigations Unit, an Independent Commission 
for Information Retrieval, an Implementation and Reconciliation Group, 
and an Oral History Archive. The agreement on legacy issues is based 
largely on negotiations led last year by former Special Envoy for 
Northern Ireland Richard Haass.
    I commend the parties for working together through some very 
contentious issues--and finding solutions that will promote a more 
peaceful and hopeful future for the people of Northern Ireland. The 
agreement will now go through party structures for endorsement.
    The UK Government also played a critical role in the talks' success 
by agreeing to provide financial support, including new funding to 
implement the arrangements for dealing with legacy issues and to 
promote shared and integrated education.I applaud the parties and the 
two governments for securing this agreement and pledge America's full 
political support for the new arrangements. I'm also particularly 
grateful to my Personal Representative, Senator Gary Hart, and his 
Deputy Greg Burton, whose deep engagement helped ensure the success of 
the talks. I know Senator Hart looks forward to continuing his efforts 
next year in support of a peaceful and prosperous Northern Ireland, and 
I am very lucky to have Gary devoting his time to this effort.

March 12, 2015

U.S. Government Statement on Stormont House Agreement

    Former U.S. Senator Gary Hart, the Personal Representative of 
Secretary of State John Kerry stated: ``The United States Government 
continues to strongly support the Stormont House Agreement of 23 
December 2014 and urge all parties to reach an understanding on the 
scope of the Agreement as it applies to welfare payments to citizens of 
Northern Ireland so that a successful series of meetings planned for 
St. Patrick's Day can go forward as planned in Washington.''

                Prepared Statement of Geraldine Finucane

    Mr. Chairperson, my fellow speakers, distinguished guests, ladies 
and gentlemen. . .
    On behalf of my entire family, I would like to thank you for this 
invitation to speak today and to testify before this Commission. I 
would especially like to thank the Chairman, Mr. Smith, for his 
continued interest in the case of Patrick Finucane, my husband, in 
particular, and the issue of human rights in Northern Ireland in 
general. As many people will know, Mr. Smith has been a keen supporter 
of, and advocate for, the development and enhancement of human rights 
in Northern Ireland throughout the peace process. His work and that of 
the Helsinki Commission--and of Congress in general--has proved 
invaluable to the people of Ireland in maintaining and developing our 
peace initiative.
    I think the topic we are discussing is one of the most important 
aspects of the peace process in Ireland, namely, how we approach our 
past, how we deal with it and how we move beyond it, without forgetting 
it or worse still, pretending it did not happen. This is something I 
know from my own personal experience.
    I am here today because of what happened to my husband, Patrick 
Finucane, who was murdered by Loyalist Paramilitaries in Belfast in 
1989. As is now a matter of public record throughout the world, Pat was 
a lawyer practising in Northern Ireland during the period of civil 
conflict that extended throughout 1968-1994. He specialised in criminal 
defence work and developed particular expertise in defending people 
charged with offences under emergency laws introduced by the British 
Government during the conflict.
    As a result of his innovative approach to the work and the many 
successes that flowed from it, Pat became a target for Loyalist 
paramilitaries who perceived him as partisan and an enemy of the State. 
As a result of his work, Pat was murdered by Loyalist paramilitaries in 
February 1989, with the active participation and collusion of British 
State and Army agents. The false perception of Pat as being sympathetic 
to his clients' political beliefs and even that he engaged in unlawful 
activity on their behalf was fostered actively by the British Security 
Service (MI5) encouraged by the Royal Ulster Constabulary Special 
Branch (RUC SB) and, I believe, the British Army's covert agency, the 
Force Research Unit (FRU).
    This much has been known for some time, as a result of certain 
incidents that took place during Pat's lifetime and some of the 
evidence that has been revealed since his murder. It is for this reason 
that my family and I have campaigned for the last 26 years for the 
establishment of an independent, judicial inquiry into Pat's murder. We 
believe that the circumstances surrounding the murder are sufficiently 
serious to warrant the establishment of such an inquiry. In this we are 
supported by the United Nations, Congress of the United States, 
President Barack Obama, the Irish Government and the British Labour 
Party, as well as a host of internationally recognised human rights 
NGOs. We have succeeded in litigating the issue against the British 
Government on several occasions at both domestic and international 
level. \1\ Notwithstanding this, the British Government has refused to 
establish an inquiry into Pat's murder. It has blocked our efforts for 
years in an attempt to dissuade us from campaigning by means of 
constant delay. In recent years, we have seen them try to take 
advantage of this delay by claiming that the issue is now too old and 
should be confined to the past.
---------------------------------------------------------------------------
    \1\  Finucane v. United Kingdom (2003) 37 EHRR 13
---------------------------------------------------------------------------
    The murder of Pat Finucane may well be in the past but I do not 
believe it is irrelevant to our future. Just five weeks ago, on the 
anniversary of Pat's murder, events were held in Belfast and Dublin to 
commemorate his death. Over 300 people attended the Belfast event, many 
of whom knew Pat or had worked with him during his lifetime.
    However, it is not just Pat's friends and colleagues who continue 
to believe the need for an inquiry remains essential. Many people 
living in Ireland lack confidence in the establishment and are slow to 
accept that things have really changed. One of the examples that is 
often pointed to a reason for this mistrust of the establishment is the 
lack of an inquiry in Pat's case, despite the truly shocking 
revelations of several major investigations.
    There is also the matter of the broken commitment by the British 
Government to establish an inquiry, as agreed by them (with the Irish 
Government) during negotiations at Weston Park in 2001. At that 
conference, the British and Irish Governments agreed to establish an 
inquiry into the case if an independent judge of international standing 
recommended there should be one. The judge appointed to assess the case 
was former justice of the Supreme Court of Canada, Peter Cory. He 
recommended a public inquiry in 2004, following the publication of his 
comprehensive report. In it, he concluded:

  ``[T]he documents and statements I have referred to in this review 
have a cumulative effect. Considered together, they clearly indicate to 
me that there is strong evidence that collusive acts were committed by 
the Army (FRU), the RUC SB and the Security Service. I am satisfied 
that there is a need for a public inquiry.'' \2\
---------------------------------------------------------------------------
    \2\ Cory Collusion Inquiry Report: Patrick Finucane--House of 
Commons, London, lst April 2004, at Para. 1.293

    Needless to say, the inquiry recommended by Judge Cory and promised 
by the British Government, has never materialised.
    Instead, the current Government, led by David Cameron, established 
a ``review'' of the case because, according to the British Prime 
Minister, ``. . . the government's priority was to get to the truth in 
the best and most effective way. . . '' In order to achieve this, he 
appointed a lawyer, Sir Desmond de Silva QC, to conduct a review of the 
papers in the case and to reach conclusions on foot of the materials he 
read.
    Firstly, I would like to say something about Sir Desmond de Silva 
from the point of view of perception and on the issue of public 
confidence in the State.
    Sir Desmond is a member of the British Conservative Party, the 
current party of Government, and he has received a knighthood from the 
Queen. He is also a privy councillor. Furthermore, he is a member of 
the Carlton Club in London, which describes itself as ``the oldest, 
most elite and most important of all Conservative [party] clubs.'' 
Current members include John Major, Douglas Hogg, Boris Johnson and 
other Tory notables. Former members include Margaret Thatcher, Edward 
Heath and Winston Churchill.
    Sir Desmond has also been referred to on the ``Conservative Home'' 
website--a party political site that describes itself as ``the home of 
Conservatism''--as ``a loyal Conservative who has excelled in his 
profession.''
    I make no comment on Sir Desmond personally or on his bona fides. 
However, I think it is stretching credulity to breaking point to 
suggest that appointing someone with such strong connections to the 
British establishment would inspire confidence in the Irish public when 
it comes to case as sensitive and controversial as Pat Finucane.
    Sir Desmond delivered his report to the Government on 10th December 
2012. At the time, I labelled the report ``a sham'' and ``a 
whitewash''. I believed I was right to do so at the time and since 
then, having had even more of an opportunity to consider the report in 
detail, I am convinced I was right.
    The de Silva report claims to be a comprehensive analysis of the 
circumstances surrounding Pat's murder and a definitive examination of 
what happened to him. I refuse to believe this. The review conducted by 
Desmond de Silva reveals a great deal of information for the first time 
but it is nowhere near being a complete answer. The report is based on 
a reading of documents without any questioning of their authors. 
Indeed, only eleven witnesses were spoken to by de Silva and twelve 
written submissions were received. No politicians were interviewed, nor 
were a number of key intelligence personnel, including the former head 
of military intelligence in Northern Ireland in charge at the time of 
Pat's murder.
    In this regard, Mr. Chairman, I would like to ask that an address 
by Pat's former law partner and colleague, Peter Madden, be added as an 
appendix to my testimony. It contains an analysis of the de Silva 
report and highlights some important discrepancies in the Review and 
its findings.
    Perhaps most significant of all is the ``finding'' that the 
authorities had no advance knowledge of Pat's murder. I do not believe 
this ``finding'' has a credible foundation. I am amazed that a lawyer 
of the experience and knowledge of Sir Desmond could arrive at such a 
profound conclusion in such a cursory fashion.
    Other analysts of Pat's murder have come to the opposite 
conclusion. John Stevens, former Commissioner of the London 
Metropolitan police, came to the conclusion that Pat's murder, ``could 
have been prevented'', \3\ which suggests, at the very least, that 
there was advance knowledge of a plot to kill him.
---------------------------------------------------------------------------
    \3\  Stevens Enquiry: Overview & Recommendations, 17 April 2003
---------------------------------------------------------------------------
    Were the British Army or other State agencies aware of such a plot? 
Only a public inquiry could answer this question.
    Judge Peter Cory, who published his report in 2004, also came to 
opposing conclusions in key aspects of the case. He believed that there 
was evidence to suggest that the British Army's Force Research Unit was 
aware of the plot to assassinate Pat. Sir Desmond deals with this 
crucial issue by saying, ``I must respectfully differ with inferences 
he draws in relation to the FRU's prior knowledge of the targeting of 
Pat Finucane.''
    De Silva does not explain the basis for his conclusion. He does not 
say why he disagrees, merely that he does so.
    Is this to be the last word on the case of Pat Finucane, insofar as 
the British State is concerned? Are we supposed to be satisfied with 
the response that, on the central issue of British State involvement 
in, and prior knowledge of, the murder of a lawyer, an officer of their 
own law courts, they simply prefer this verdict, rather than the last 
one?
    It seems that the Cameron administration wants to pursue this line. 
It is not difficult to see why.
    By the same token, if my family and the general public lack 
confidence in the organs of the State, it is not difficult to see 
why.We have been presented with an obviously self-serving answer to a 
potentially damning question and it is clear that the British 
Government is fighting against the prospect of full and public 
accountability for its actions.
    I have said before that I have no wish to be more in the past, nor 
does anyone else. But misrepresenting important past events and 
concealing State wrongdoing will never free us from it.
    At the commemoration of Pat's murder in Belfast last month, one 
participant remarked that, ``when the Finucanes take a step forward, we 
all take a step forward.'' I think this exemplifies the common view of 
our case in particular and the issue of the past in general.
    Proper examination of past issues does represent progress in 
contemporary society. It allows people to resolve the traumas in their 
lives and lay to rest the ghosts that haunt them and society as a 
whole. It is not always necessary to punish or to seek retribution. For 
many people--perhaps even most people--the truth about what happened is 
enough.
    We have not yet learned the full truth of what happened to Pat But 
I believe we are getting closer and one day, hopefully soon, I very 
much hope I will be testifying before this Committee about achieving 
that goal.
    On behalf of my family, I ask for the support of this Commission to 
persuade the British Government to honour its long standing promise to 
establish an independent public judicial inquiry into the murder of Pat 
Finucane.
    Thank you very much for this opportunity.

  Reviewing the Review, by Peter Madden: An Analysis of the de Silva 
                    Report, dated 12 December 2012.

    Let me start by stating that, without doubt, the most important 
conclusion made by de Silva was that the FRU did not know that the UDA 
was targeting Pat Finucane. It is my view that this conclusion 
exonerates the FRU for any part in Pat's murder. FRU is the Force 
Research Unit which was the British Army agent handling unit in 
existence at the time of the murder.
    In paragraph 21.209 page 414 of Vol 1 de Silva states that

    `` . . . Having considered and analysed a great deal more evidence 
than was available to Justice Cory, I must respectfully differ with 
inferences he draws in relation to the FRU's prior knowledge of the 
targeting of Patrick Finucane. I am firmly of the view that in this 
instance Nelson withheld critical information from his handlers.'' 

    If FRU is believed by de Silva to have had no targeting information 
on Pat Finucane then there was no such information to pass up the chain 
of command to the very top. Ed Maloney gives a very good analysis of 
this in his online blog, Broken Elbow.
    Nelson's Journal gives an account of how Nelson passed all 
information from the UDA to his handlers in FRU including the targeting 
of Pat Finucane. Nelson shifts around a bit on different occasions 
about whether he passed on information or not but this issue alone 
should be enough to justify the establishment of a Public Inquiry 
because there is credible suspicion that Nelson did pass on such 
information to FRU. There are also allegations that FRU people were 
helping in the targeting of Pat.
    The de Silva Review is one man's analysis of a large amount of 
material. He has been selective. It is impossible to arrive at the 
truth unless this material is provided and analysed by others who have 
an interest in the issues. A public inquiry with a number of interested 
parties would allow these interested parties to pursue their own 
theories and use the relevant material provided to make their own 
analysis.
    There are concerns about the authenticity of much of the 
documentation he refers to in his report. There is no indication in the 
Report as to how he validated the documents he examined.
    This is one of the main objections to de Silva's process. He has 
gone into minute detail by analysing the documents, particularly the 
Contact Forms and other intelligence documents without taking a view 
that some may not be genuine. He has then reached conclusions that may 
not be true. More importantly he makes the assertion that he used the 
intelligence documents as a yardstick to test the validity of other 
material. He says that he had ``the advantage'' of having 
contemporaneous intelligence records. He doesn't say how he knew they 
were ``contemporaneous'' and it would be difficult to know unless you 
ask questions.
    At page 390 of volume 1 he states, ``As with all intelligence 
material, the above information is necessarily limited in its 
evidential value, though I have not seen any material to suggest there 
are any doubts as to the accuracy of this information.''
    Judge Cory, who published his report on 1 April 2004, examined 
material and he was assured that he was furnished with all information 
that might bear on the issues he was examining and on that basis he was 
satisfied that his review was as comprehensive as possible. However, as 
de Silva has stated in this report, Judge Cory did not get all the 
material he was assured he would get. He doesn't say why Cory and 
Stephens didn't get this material.
    In Chapter 11, page 250, de Silva refers to new information that 
has just come to light but he doesn't say what it is. He refers to 
Contact Forms (CFs) and the Security Service's ``compendium of leaks'' 
published in 1989 but he doesn't make it clear if this is what he means 
by new information. CFs were examined by Cory.
    Interestingly, Judge Cory's document review was similar to de 
Silva's in that they both had no power to subpoena witnesses nor to 
require the production of documents and other material. At least Cory 
didn't claim to find the truth about what happened because he was clear 
that conflicts of evidence, which he found could only be resolved by 
examining witnesses in a Public Inquiry.
    He set out the areas where he could not make any findings and 
stated that only a Public Inquiry, where documents and witnesses could 
be examined, could resolve the conflicts and arrive at conclusions. In 
other words, a review of documents, although useful, was not the end of 
the matter. Judge Cory's task was to determine if there was a prima 
facie case that collusion existed.
    Judge Cory's report was a far shorter exercise resulting in 115 
pages compared with de Silva of 800 pages. De Silva took a view that 
the papers that he examined were authentic, which in my view makes it a 
fundamentally flawed process. In terms of size, the report is certainly 
formidable but all he has given us is snippet upon snippet of carefully 
selected material. Unless all the material is examined (or as much as 
is legally possible to examine) it is impossible to form a view.
    He refers to many documents but annexes only a few. He has picked 
extracts from others. He doesn't say why. He refers to certain 
documents and we are not permitted to read these documents in full, let 
alone challenge the contents. Nor were we entitled to examine any of 
the original documents. He refers to documents that we did not know 
existed. Basically, he has read the documents and come to his own 
conclusions about the content. He has referred to many documents that 
we have not seen as if he is the only person who can make sense of them 
and come to the truth about them. Some of these, as he says, he has 
redacted and annexed but most have just been referred to in footnotes. 
We don't know what other material he has examined. Where is the rest of 
it?
    In view of the fact that there exists over a million pages of 
documents, he has to be selective. However, we have not been told how 
he selected the material. There is no explanation for failing to 
disclose material We don't know how many pages of material exists. Over 
a million could mean closer to two million.
    Documents can be verified. Authenticity can be verified. There is a 
forensic way of doing this. Documents have to be examined in the 
context and with other documents. You have to know what to look for. If 
we suspect that a document is forged, we can have the original examined 
by an expert in that field. If we think that the contents of a document 
are not credible, we can explore by cross examination, where interested 
members of the public can see and hear witnesses.
    There is an allegation by Ian Hurst (aka Martin Ingram) that the 
Contact Forms (CFs) were forged. Ian Hurst was a member of FRU and a 
whistleblower. This has to be a starting point in any scrutiny of the 
bona fides of the documentation that was examined by this Review. It is 
incomprehensible that de Silva can come to a conclusion about this 
without a thorough examination of the documents and a proper 
examination of Ian Hurst, who he dismissed as a `Walter Mitty' 
character and all those others involved. When you take into 
consideration that the FRU had a year to ``sort out'' the documents, 
this whole area needs examined. This was highlighted in John Ware's 
Panorama programme. It took a threat to arrest the GOC General Waters 
to get Nelson's intelligence material and the CFs weren't produced to 
the Stevens team for nearly a year. Hurst said that the FRU had the 
material during this time and were doctoring it. As highlighted in 
Panorama, Stevens' team thought that the documents were tampered with.
    Hurst is no Walter Mitty character and I met him in Dublin a few 
years ago, introduced by Greg Harkin. Hurst would be a crucial witness 
in a Public Inquiry but de Silva dismissed him without even seeing him.
    This in itself raises the issue of the ``cover-up'' of the 
collusion. It is the accountability escape route. If, for example, 
there was incriminating material in the Nelson/FRU documents/
recordings/transcripts, there was plenty of time to get rid of it or 
change it. (p.410-415 Vol. I) This goes to the heart of the matter.
    The fact that the Stevens Investigation eventually got the FRU 
documentation and there was no reference to the targeting of Pat 
Finucane and no reference to Pat at all until the morning after the 
murder when Nelson phoned Margaret Walshaw, his handler. All this is 
very suspicious. At a Public Inquiry, Ian Hurst would not be the only 
witness on this issue as there are other FRU members including the 
commanding officers and those up the very short chain of command who 
could deal with this particular issue. Many of them made statements to 
the Stevens team.
    It is inconceivable that this plot was not known to the FRU. They 
must have known about it and they must have known that Nelson would be 
in the thick of it, as chief Intelligence Officer and their only 
loyalist agent, according to de Silva. Questions would be asked about 
this at a Public Inquiry. It is just not believable that FRU did not 
know about the plot. It is believable that they knew about it through 
Nelson and it is believable that they helped Nelson with targeting Pat 
as they did with targeting other people and it is believable that they 
directed the murder and that they doctored the documentation to remove 
all reference to the targeting of Pat Finucane and to paint a 
benevolent picture of FRU's links with Nelson.
    There is also the important issue of how far up the chain of 
command did this plot go. The FRU had a chain of command directly to 
the top of government and there were very few links in the chain: agent 
- FRU handler - OC Det - OC FRU - CLF & GOC Defence Minister - and then 
to the Joint Intelligence Committee chaired by Margaret Thatcher in 
London.
    Due to the fact that, according to de Silva, Nelson was the British 
Army's only loyalist agent, and that he reported to his handlers on a 
weekly basis, his weekly FRU reports could easily be dealt with at the 
weekly Joint Intelligence Committee meetings, in London chaired by 
Margaret Thatcher. It is inconceivable that Nelson was not a focus at 
these meetings. Nelson in his diary strongly suggests that Thatcher was 
a personal recipient of intelligence.
    There are numerous inconsistencies in the report that can't be left 
on the shelf. For example, de Silva says FRU was founded in 1982 but 
other authors such as Mark Urban in ``Big Boys Rules'' quotes CLF 
Glover who says he established FRU in 1980 to form a ``triumvirate'' 
with the 14th Intelligence and SAS.
    Cory says, ``In 1985 Brian Nelson walked in off the street to offer 
his services to the British Army as an agent.'' (page 24 Cory Report) 
whereas de Silva says, quoting Brian Fitzsimmons, ``[Nelson] appears 
not to have become involved in paramilitary activity until May 1984, 
when he contacted the Army to offer his services as a source of 
intelligence'' (para 6.6 at page 99 de Silva Vol 1 ). Brigadier 
Arundell David Leaky, on the other hand, a director of Military 
Operations in the Ministry of Defence, who filed an affidavit in 
injunction proceedings, says that  ``In 1983 Nelson offered his 
services to the Army as an agent in the UD''. This document is not 
referred in de Silva report nor Cory but was published in the ``Sunday 
Tribune'' on 14 April 2002 in an article by Ed Maloney. This is an 
example of the limited nature of the de Silva process. He was limited 
by virtue of his terms of reference.
    So what is the truth of the recruitment of Brian Nelson? And what 
is the truth about the formation of FRU?
    Cory says, ``At this time he [Nelson] was a member of the UDA and 
acting as an Intelligence Officer for that organisation in West 
Belfast'' (para 1.45 page 24 Cory Report) But de Silva says, ``Despite 
his previous conviction for involvement in serious sectarian violence, 
the FRU tasked Nelson with rejoining the UDA (quoting from Nelson's 
journal). (para 6.7, page 99 of de Silva Vol. 1 )
    So was he already in the UDA when he offered his services or was he 
``tasked with rejoining the UDA'' after offering his services?
    These are important issues because the suspicion is that he was a 
soldier and then a UDA sectarian killer and that these credentials made 
him a very good candidate for targeting uninvolved Catholics or 
republicans. Was this the continuation of the classic Kitsonian death 
squad? In other words a British military unit using local agents as 
killers whilst funding and supporting them and directing them.
    There is a suspicion by many that Nelson never left the British 
Army and when he went to Germany in 1985, it was not to get away from 
the UDA but to train with the British Army in Germany before his re-
introduction in a more specialised system and when it is alleged he 
came back to Belfast from Germany in 1987 is it a coincidence that this 
coincided with a shipment of modern weaponry from South Africa to arm 
loyalists in a revived murder campaign against Catholics and 
republicans. There are many questions to be asked about this.
    De Silva says that Nelson was not involved in the South African 
arms shipment in 1987, even though he accepts that Nelson travelled to 
South Africa in 1985 and discussed arms shipments to the North. There 
is an interesting issue about Nelson's trip to South Africa. Judge Cory 
states that FRU paid Nelson's expenses for the trip but de Silva 
doesn't mention that at all in his report. I wonder why? The absence of 
this crucial bit of information from de Silva's report is significant.
    This is another example of de Silva exonerating FRU and thus the 
British Government, in the murders Catholics and republicans post 1987. 
Nelson remained in his targeting role up until his arrest in 1990.
    This whole issue would be closely examined at a public inquiry 
where one document could lead to another and all interested parties 
would be entitled to examine all the documentation, as well as cross-
examine relevant witnesses. None of that happened during the de Silva 
process.
    There is so much information and misinformation in the public 
domain about Pat's murder. There has to be public clarification. It 
can't be allowed to be swept under the carpet by Cameron and de Silva.
    This is just a short narrative of what I think are important areas 
that have not been properly examined in this review process and which 
cannot be examined properly until all the documentation is furnished, 
not just snippets and footnotes.
    The following examples are some of the important areas that needs 
thorough examination in a public forum at a Public Inquiry where there 
is no hiding place:

    <bullet>  The role of the RUC in Pat's murder, from the death 
threats to solicitors from Castlereagh and the other holding centres of 
which Pat bore the brunt, to the RUC briefing by Jack Hermon to Douglas 
Hogg with false information about Pat's family members. De Silva 
published what he says is intelligence material about this. The detail 
of the contact between the SB and FRU is crucial and requires a full 
public examination along with the connection between the RUC and the 
RUCSB.
    <bullet>  He published what he calls intelligence which alleges 
that Pat laundered money for the IRA in the firm where we worked 
closely together for 10 years. I know this to be completely untrue but 
I don't know who concocted it and questions need to be asked about 
that. He also published allegations that Pat was a finance officer and 
an intelligence officer in the IRA p 353 Vol 1. He cleverly makes it 
clear that there is no evidence that Pat was involved with the IRA but 
I think what is interesting about this is that de Silva published 
documents in Vol 2 of his report which allege just that. This is a 
cynical exercise in deception and there can be no excuse for it. He 
should not have published this material because there was no mechanism 
in his process for the family members, or me for that matter, to 
challenge it.
    <bullet>  The fact that there was an RUC SB file on Pat which seems 
to have been packed with fact and fiction. Questions need to be asked 
about how false information got into this file.
    <bullet>  This whole area needs explored as it will show that this 
intelligence information was faked beforehand to justify the murder and 
it had to be beforehand as some of it was briefed to Douglas Hogg in 
November 1988, when Hogg travelled to Belfast to meet the RUC 
hierarchy, according to de Silva.
    <bullet>  The role of the FRU in its entirety and the calling of 
FRU witnesses to explain themselves and the role of the people in that 
chain of command.
    <bullet>  There was a British army file on Pat and the word 
``PIRA'' next to his name. De Silva accepts the British army 
explanation that this was only an administrative reference (whatever 
that means--he doesn't say what it means) p 409/410 vol 1.
    <bullet>  In Chapter 15 there is what is called Propaganda 
Initiatives by MI5 in which Pat was targeted and where de Silva implies 
that the targeting of Pat in this initiative was inadvertent. This 
needs examined because it is new. I had never heard of it before the 
publication of this report.
    <bullet>  The various death threats to Pat starting in 1981, which 
State agents knew about but they decided not to warn Pat about them. 
Things might have been different if warnings were given.
    <bullet>  There is the inconsistency in Gordon Kerr's role, see p 
488 Vol 1 that refers to Cory's analysis of Kerr's testimony as 
misleading and also referred to the highly dubious numerical analysis. 
De Silva challenges Cory at pages 488/489 and goes into a lengthy 
analysis of the FRU documentation, again accepting their authenticity 
and says that his analysis takes him in a different direction to that 
of Cory p 491. In other words Cory got it wrong, according to de Silva. 
This requires a full examination at a Public Inquiry as there is a 
clear conflict between Cory and de Silva on this crucial issue of 
Kerr's evidence at NELSON's trial. Cory said that only a Public Inquiry 
could resolve this issue.
    <bullet>  The role of government ministers who were cleared by de 
Silva on the basis that the paperwork showed that ministers were not 
included in the distribution lists of some intelligence reports. De 
Silva says at p 500 that Government Ministers were not on the 
distribution list for a particular report and this is just not 
believable and it is also convenient. He took the view that because he 
didn't see any evidence of ministerial involvement that there wasn't 
any.
    <bullet>  At pages 56-60 of Nicholas Davies' book, ``Ten Thirty 
Three'', the author states that Margaret Thatcher was chairman of the 
Joint Intelligence Committee (JIC) which met weekly at Downing Street 
and she ordered a complete review of the security and intelligence set-
up in NI (after the Brighton bomb in 1984) and ``from that moment on 
Margaret Thatcher decided to become far more closely involved in the 
Irish question.'' 

    The author states that in her memoir, ``The Downing Street Years'', 
Thatcher said she played a vital role in co-ordinating the services 
through the powerful and influential Joint Intelligence Committee. The 
Joint Irish Section (JIS) was strengthened. Interestingly de Silva 
refers to about a half dozen books in his Report, including ``The 
Downing Street Years'' but not ``Ten Thirty Three'', which is 
remarkable, since it is based on Nelson and FRU. The British Government 
took injunction proceedings against the author to stop publication and 
succeeded in preventing parts of his draft from getting into the final 
publication. Yet none of this is mentioned in the de Silva Report.
    Another area to be examined at a Public Inquiry is the reference to 
a redacted statement of Alan Simpson who was the RUC officer in charge 
of the murder investigation where Simpson says two army personnel spent 
an hour in Pat's house after the murder (p 137 Vol 2) and although he 
says that he doesn't think there was anything sinister in that and that 
it happens all the time, I think questions have to be asked about it.
    Finally, I would like to comment on perception.
    According to the Mail Online 25 September 2009, Sir Desmond de 
Silva is a member of the Carlton Club St James Street London. This club 
was bombed by the IRA on 25 June 1990. Lord Kaberry, who was injured in 
the attack, died in March 1991 aged 83. Douglas Hogg is a member of 
this club as is Margaret Thatcher, John Major and Boris Johnson and 
other Tory notables. Past members were Winston Churchill and Ted Heath. 
The club describes itself as ``the oldest, most elite, and most 
important of all Conservative clubs.'' Membership of the club is by 
nomination and election only. He is also a member of the Naval and 
Military Club and Brooks club.
    So there you have it. Cameron obviously cared little that there 
might be a perception that de Silva might be biased in some way. It's 
unlikely that he would ever be selected to head a Public Inquiry into 
Pat's murder due to this perceived bias.
    I don't know how many times throughout this report de Silva refers 
to his ``full public account.'' It is not a full account. It is 
definitely not a public account and it is so flawed in its failure to 
authenticate documentation that it is not anywhere near an account of 
the truth.
    David Cameron made a statement in the House of Commons on 12 
October 2011 that ``. . . the really important thing . . . is to open 
up and tell the truth.'' But the truth will have to wait for another 
day.

                  Prepared Statement of Kieran McEvoy

Background

    Members of Congress, ladies and gentlemen I am extremely honoured 
to be addressing you today. My name is Professor Kieran McEvoy and I am 
Law Professor at Queens University Belfast, currently seconded to the 
University's Institute of Conflict Transformation and Social Justice. 
My specialism is transitional justice--in effect how societies deal 
with violence and human rights abuses of the past. I have researched in 
over a dozen such societies for the past twenty years.
    In Northern Ireland, I am a long term peace and human rights 
activist. I have previously served on the board of the Committee on the 
Administration of Justice (CAJ, the primary human rights Non-
governmental organisation in Northern Ireland) for much of those last 
twenty years, serving almost a decade as Chairperson.
    I am currently working with the CAJ and others in producing a piece 
of draft legislation on dealing with the past in Northern Ireland--
mirroring the efforts of the UK government--which we hope will help to 
inform the public conversation on these difficult and challenging 
matters.
    Prior to that, with my colleague Professor Louise Mallinder from 
the University of Ulster and others, I managed a two year project 
funded by the UK's Arts and Humanities Research Council wherein we 
provided practical and legal information to all of the political 
parties involved in the negotiations on aspects of dealing with the 
past, as well as a range of victims groups, civil society, human rights 
NGOs, ex-prisoner groups and others. \1\
---------------------------------------------------------------------------
    \1\  For a range of policy document on aspects of the dealing with 
the past debate in Northern Ireland produced by this project including 
the requirements of Article 2 of the European Convention on Human 
Rights see http://amnesties-prosecution-public-interest.co.uk/
---------------------------------------------------------------------------
    Thus my interest in dealing with the past is both academic and 
practical--trying to use international experiences garnered elsewhere 
to help politicians and others navigate through these complex issues. I 
have been asked by the Commission to specifically address a number of 
issues related to the Stormont House Agreement namely:

    <bullet>  Origins

    <bullet>  Substance

    <bullet>  Politics

    <bullet>  Implementation

    <bullet>  Accountability and Justice for past crimes

    <bullet>  Reconciliation & the Peace Process.

    I shall address these in the order requested.

Origins

    Unlike in other post conflict societies, the Good Friday Agreement 
(1998) did not contain provisions for an over-arching mechanism such as 
a truth commission to deal with the past in Northern Ireland. What has 
emerged in the interim is a `piecemeal' or `patchwork quilt' range of 
past focused mechanisms, most of which are located within the Northern 
Ireland criminal justice system. That patchwork of mechanism has 
included a number of public inquiries into controversial killings 
(although not as Mrs Finucane will testify into the murder of her 
husband Pat), the work of the Office of the Police Ombudsman, the work 
of the police-based Historical Enquiries Team, and Inquests into 
conflict-related deaths. The UK government has previously argued that 
taken together the cumulative effect of these `package of measures' to 
deal with the past are such that they satisfy the governments legal 
obligations under Article 2 of the European Convention of Human Right 
to establish effective and independent mechanisms to investigate 
conflict related deaths. As is detailed below, and as this Commission 
has heard previously, there is now compelling evidence that in fact 
those legal obligations are not being satisfied by the existing 
structures--in particular with regard to deaths involving state forces 
or agents of the state.
    The antecedents of the elements of the Stormont House Agreement 
which deal with the past can be traced to a number previous pieces of 
work.
    In 2006 the well-respected local NGO Healing Through Remembering 
produced a lengthy document entitled `Making Peace with the Past' which 
outlined a range of options for dealing with the past in Northern 
Ireland.
    In 2009, the Consultant Group on the Past which had been appointed 
by the Tony Blair led Labour government reported. It picked up on a 
number of suggestions included in the Healing Through Remembering 
report and recommended the establishment of a Legacy Commission with a 
mandate to oversee a range of processes designed to assist the process 
of reconciliation, justice and information recovery. Following a 
negative political reaction to one recommendation in particular (the 
payment of <brit-pound>12,000 to all families who had lost loved ones 
during the conflict regardless of the status of the person killed) and 
a vociferous rejection of the report by Unionists in particular, the 
new Conservative government in effect shelved that report.
    In December 2013, following extensive political negotiations 
between the five parties of the Northern Ireland Executive under the 
direction of Richard Haass and Megan O'Sullivan, a document was 
published by the Office of the First Minister and Deputy First Minister 
of Northern Ireland. That document, ultimately rejected by the two main 
Unionist parties, contained provisions for new mechanisms to deal with 
the past. These included: a Historical Investigations Unit (merging the 
work of the Historical Enquiries Team and the Office of the Police 
Ombudsman); an Independent Commission for Information Retrieval (ICIR) 
which would have the power to offer limit immunity to those who gave 
evidence and frame a range of themes concerning the past; detailed 
provisions on how different actors might acknowledge their role in the 
conflict.
    In December 2014 the Stormont House Agreement was completed. This 
initiative included much more `hands on' involvement from the British 
and Irish governments. Although it appeared that all of the parties had 
`agreed' to the document immediately after negotiations were completed, 
there has been some slippage with the Ulster Unionist Party, the SDLP 
and Sinn Fein all appearing to distance themselves from different 
financial aspects of the Agreement--but not (to date) the elements 
associated with dealing with the past. The DUP have yet to formally 
endorse the document.

Substance (Summary of Key Past-Focused Elements of the Stormont House 
Agreement)

    The first important point to make with regard to the Stormont House 
Agreement (SHA) is that the document is in reality a series of `Heads 
of Agreement' rather than a detailed agreed programme. For example, the 
elements in the document relating to dealing with the past contain 5 
pages compared, for example to the Haass O'Sullivan document where in 
the equivalent provisions were detailed over 20 pages.
    Second, the Agreement requires new legislation to enact a number of 
its provisions.
    The SHA includes provisions for establishing:

A Historical Investigations Unit (HIU) to be overseen by NI Policing 
Board, slated to complete its work within five years of establishment. 
The HIU will incorporate the current work being done the Historical 
Enquiries Team and the Office of Police Ombudsman. Decisions on whether 
or not to prosecute as a result of the work of the HIU will remain the 
responsibility of the Director of Public Prosecutions.

An Independent Commission on Information Retrieval (ICIR) to be 
established by UK and Irish Governments to cover both jurisdictions. 
Limited to five years of operation. Information provided to it will not 
be disclosed to law enforcement or intelligence agencies, and such 
information will be inadmissible in criminal and civil proceedings. 
This body will be immune from judicial review, Freedom of Information, 
data protection and national archives legislation in both 
jurisdictions. It will be led by a person (possibly of international 
standing) and 4 others, two nominated by OFM-DFM and one each nominated 
by the British and Irish governments.

An Implementation and Reconciliation Group (IRG) established to oversee 
themes, archives and information recovery. A themes report to be 
commissioned after five years. Promoting reconciliation will underlie 
all of the work of the IRG. This body will be made up of 11 
representatives, nominated by the different political parties of the 
Executive (3 DUP, 2 SF, 1 each by the other parties and two 
governments).

An Oral History Archive--independent and free from political 
interference--to be formed by Executive by 2016. Academic-led 
historical timeline and statistical analysis of the Troubles to report 
within 12 months of Archive establishment.

    In addition,

Legacy inquests (compliant with ECHR Article 2 requirements) to 
continue as separate process to HIU.

    In the context of the work of the IRG the UK and Irish Governments 
will consider statements of acknowledgement and would expect others to 
do the same.

Politics
    The first point to make with regard to the politics of the past 
related elements of the SHA is that achieving some level of consensus 
(albeit on heads of agreement) with regard to a series of mechanism for 
dealing with the past was itself a formidable achievement.
    Second, as is detailed below, the evidence would suggest from the 
operation of the existing patchwork of dealing with the past mechanism, 
that there remain elements within the state security sector which are 
determined that some of the less savoury actions of the state during 
the conflict will not come to light. The bona-fides or otherwise of the 
non-state actors, with the exception of the IRA's engagement with the 
Disappeared Commission, has yet to be tested.
    Third, it should also be noted that one gap in the political 
process which led to the Stormont House Agreement is that there has 
been no systemic attempts to keep politicians and others affiliated to 
the loyalist paramilitaries on board and supporting the mechanisms 
agreed. Certainly if for example the information retrieval mechanisms 
are to function properly or indeed the envisaged `statement of 
acknowledgement', this will require the co-operation of those 
previously affiliated to the loyalist paramilitaries.

Implementation
    Officials from the Northern Ireland Department of Justice have 
recently confirmed that one single bill will be introduced in 
Westminster to cover all elements of the SHA on dealing with the past 
including some changes to the Inquest system. The officials aim to 
produce the draft legislation by June 2015 and it is slated to be 
introduced in September. The current time-frame is that the HIU and 
other bodies should be operational by April 2016. In the meantime, 
practical elements including the appointment of the Director of the 
Historical Investigations Unit may be progressed.

Accountability and Justice for Past Crimes
    The primary mechanism envisaged to provide accountability and 
justice for past crimes under the SHA Agreement is the Historical 
Investigations Unit (HIU). As noted above, this body will assume the 
past related work conducted by the police led Historical Enquiries Team 
and the Office of the Police Ombudsman.
    Before considering some of the detailed challenges associated with 
the establishment of the HIU it is important to make a number of 
important preliminary points.

          (i) A Responsibility Not to Oversell Likelihood of 
        Prosecutions

    First, as the former Chief Constable of the Police Service of 
Northern Ireland made clear when he set up the Historical Enquiries 
Team, it is important that the potential for conflict related 
prosecutions is not over-sold, particularly to victims.

        ``The likelihood of solving cases was clearly going to be 
        slight. Witnesses would be old or dead. Exhibits, if still 
        available, could be contaminated or inadmissible. Informants 
        and agents would be in the mix; the original paperwork 
        incomplete or missing . . .. The forensic laboratory was blown 
        up twice. Numerous police stations were blown up, stations 
        housing much of the investigative material . . .. The fact that 
        evidential opportunities lost at the time would be hard to 
        recover did not render the initiative worthless. We had to 
        shift the focus to ensure that, mindful of our primary role as 
        investigators, the driving force behind this initiative would 
        be to deliver a meaningful outcome for the families.'' (Hugh 
        Orde, 2009)

          (ii) A Two Year Maximum Sentence under the Good Friday 
        Agreement

    Second, any person arrested and successfully convicted of a 
conflict related offence which was committed before 1998 will only 
serve a maximum of two years if they fall within the terms of the early 
release legislation.

          (iii) No state Actors Prosecuted since 1998

    Third, as the recent CAJ report Apparatus of Impunity has made 
clear (a document I have submitted to the commission to be part of the 
official record), only a handful of non-state actors have been 
successfully prosecuted for such offences since 1998 and no state 
actors at all.\2\
---------------------------------------------------------------------------
    \2\  CAJ (2015) The Apparatus of Impunity? Human Rights Violations 
and the Northern Ireland Conflict. Belfast: CAJ. Available at http://
www.caj.org.uk.
---------------------------------------------------------------------------
          (iv) PSNI Legacy Investigations Branch is Not Article 2 
        Compliant

    Fourth, as the Commission is aware, following the highly critical 
research of Professor Patricia Lundy and the report of Her Majesty's 
Inspectorate of Policing, the credibility of the Historical Enquiries 
Team was so badly undermined that its Director resigned and its work 
was suspended. The central tenet of those criticisms was that the 
relationship of the Historical Enquiries Team to the PSNI was such that 
the HET was incompatible with the requirements for independent 
investigations under Article 2 of the European Convention of Human 
Rights. In December 2014 the PSNI announced that a new body within the 
PSNI--the Legacy Investigations Branch--would assume the role of the 
HET, albeit with a reduced budget and reduced personnel. It is not at 
all clear to me how this new police entity can satisfy the independence 
criteria which undermined the HET. Indeed on 11th March 2015, a joint 
House of Lords-House of Commons All party committee on human rights 
concluded at para 3.17 ``As well as having fewer resources at its 
disposal than its predecessor, the Legacy Investigations Branch cannot 
itself satisfy the requirements of Article 2 ECHR because of its lack 
of independence from the police service.'' I agree strongly with that 
conclusion.

Key Issues Regarding the Establishment of the Historical Investigations 
Unit

    Given that the draft legislation which will establish the HIU is 
yet to be produced, all that one do at this juncture is to set out a 
non-exhaustive range of matters which will require close political and 
legal scrutiny concerning the detail of that legislation.

How To Ensure That The HIU Is Article 2 Compliant? What (If Anything) 
Will Be The Future Role Of The PSNI And Former PSNI-RUC Officers In The 
Historical Investigations Unit?

    The key to the credibility of the Historical Investigations Unit 
will be to ensure that this institution is compliant with Article 2 of 
the ECHR with regard to its independence. A central component of that 
credibility will be to decide the relationship between the HIU and the 
PSNI and the role (if any) of former PSNI/RUC officers within the HIU 
structures. The SHA states ``Appropriate governance arrangements will 
be put in place to ensure the operational independence of the two 
different elements of the work of the HIU.'' i.e. the work previously 
completed by the HET and Office of the Police Ombudsman.
    The now discredited HET model was in effect that a policing led 
structure, answerable to the Chief Constable could be created with 
sufficient `firewall' protections inbuilt to ensure its independence, 
particularly involving cases of state malfeasance. Despite doing some 
good work and bringing a measure of closure to some families, as was 
detailed by Professor Lundy and the HMIC report, this model was fatally 
undermined by its inability to deal with state-related cases in an 
independent and impartial manner.
    In order not to replicate the same mistakes in the HIU, the 
simplest way forward is to make the HIU entirely independent from the 
PSNI and to insist that former RUC and PSNI personnel are not involved 
in the work of the HIU. Obviously this will require recruitment of 
experienced investigators, family liaison personnel, suitable vetted 
archivists and data management personnel so forth--but it is preferable 
to do this than to try to adapt a version of a model that was not 
Article 2 compliant, that would undoubtedly be challenged and that 
would fail to command the required levels of public confidence.

What Will Be The Criteria To Have Cases Completed By The HET Or OPONI 
`Re-Opened'?

    The starting point for the HIU is that it will complete cases where 
the HET or the OPONI have not completed their work including HET cases 
already identified as requiring re-examination. It also states 
``Families may apply to have other cases considered for criminal 
investigation by the HIU if there is new evidence, which was not 
previously before the HET, which is relevant to the identification and 
eventual prosecution of the perpetrator.''
    It is important that this criteria is not overly restrictive where 
families have concern about the effectiveness or impartiality of a 
previous HET or OPONI investigation but where, for example, the most 
likely direct perpetrator is dead. One way to ensure that such families 
have the possibility of achieving justice or accountability is to adopt 
a broader definition of perpetrator beyond simply those whole pulled 
the trigger or planted the bomb. The jurisprudence developed by the 
International Criminal Tribunal for the Former Yugoslavia is useful in 
this regard. Article 7 of the tribunal statute offers the following 
definition of a perpetrator. ``A person who planned, instigated, 
ordered, committed or otherwise aided and abetted in the planning, 
preparation or execution of a crime. shall be individually responsible 
for the crime.'' There may also be a case for power for referral from 
other state agencies to have the HIU review a case in the public 
interest.

Will The HIU Have The Power To Request Previous Prosecutorial Decisions 
Taken By The Director Of Public Prosecutions To Be Reviewed?

    The SHA stipulates ``As with existing criminal investigations, the 
decision to prosecute is a matter for the DPP [Director of Public 
Prosecutions].'' It does not make clear whether the negotiators 
intended that prosecutorial decisions which were taken previously with 
regard to conflict related cases may also be re-opened. For example, it 
is possible to envisage circumstances where the HIU could (either on 
its own initiative or at the request of the family) reopen and resubmit 
files where it believes that the DPP should review an earlier decision 
not to prosecute. I would suggest that such a possibility should be 
explicitly catered for in the legislation.

Sanctions for the Withholding, Destruction or Failing to Take Due Care 
of Evidence

    The SHA stipulates that ``The UK Government makes clear that it 
will make full disclosure to the HIU. In order to ensure that no 
individuals are put at risk, and that the Government's duty to keep 
people safe and secure is upheld, Westminster legislation will provide 
for equivalent measures to those that currently apply to existing 
bodies so as to prevent any damaging onward disclosure of information 
by the HIU.'' The stipulation about `damaging onward disclosures' is 
obviously a reasonable requirement given the sensitive nature of the 
material to which HIU staff may have access. In addition however, given 
the experiences documented by CAJ in Apparatus of Impunity of repeated 
examples of materials ``being put beyond the reach of investigators, 
going `missing', being destroyed, or being overly redacted'', it would 
seem prudent to include in the legislation sanctions with regard to 
destruction of failure to take due care and attention in the storage of 
materials to be passed to the HIU.
    There a range of other issues which will impact upon the efficacy 
and legitimacy of the HIU which will all be addressed in the draft 
legislation which CAJ and myself hope to produce in the coming months.

Reconciliation & the Peace Process

    The other key theme which I have been asked to address in this 
submission is the potential effect of the SHA on reconciliation and the 
peace process. Obviously the justice focus of the HIU is but one 
element of this significantly larger process.

The Independent Commission for Information Retrieval (ICIR)--At the 
moment there is scant detail as to what may be contained in the 
legislation with regard to this body. A number of obvious points arise 
from the relative sections of the SHA.

Time-frame--while the SHA stipulates that the ICIR should only run for 
a total of five years it would seem prudent to include a mechanism in 
the legislation which would allow for the work of the body to be 
extended if necessary or at the very least, a process whereby the ICIR 
archives would be maintained along with the capacity to receive any 
additional statements and communicate results to families.

Independence--like the HIU, the independence of the ICIR will be key to 
its effectiveness. That independence needs to be guaranteed in the 
legislation including a requirement that statutory bodies would respect 
the ICIR's independence.

Guarantees of Non-Prosecution--A related central element of the 
effectiveness of the ICIR will be the confidentiality of the process 
including the guarantees contained in the SHA that no person will be 
prosecuted, held liable in civil court or have the information they 
give to the ICIR passed to law enforcement or intelligence agencies. 
The SHA also provides that the ICIR will be given ``the immunities and 
privileges of an international body and would not be subject to 
judicial review, Freedom of Information, Data Protection and National 
Archives legislation, in either jurisdiction.'' The legislative 
robustness of those guarantees will be crucial, as they have been in 
securing the continued functioning of the Independent Commission on the 
Location of Victims' Remains (the `Disappeared Commission') to which 
the SHA makes explicit reference.

The Powers of the ICIR
    The SHA is vague on the powers of the ICIR (e.g. re access to 
documents, powers to question witnesses etc.). All that is stated is 
that the ICIR will be held accountable to ``the principles of 
independence, rigour, fairness and balance, transparency and 
proportionality''. The legislation will need to make clear what powers 
the ICIR has in order that these principles may be enacted.

The Implementation and Reconciliation Group
    As noted above (IRG) will oversee themes, archives and information 
recovery and after five years, a report on themes will be commissioned 
involving independent academic experts. Given that all of the 
appointees to this body will be political nominees by the various 
political parties, it will be particularly important that it too will 
have a strong legislative framework to ensure that the commitment in 
the SHA that the process of addressing the themes of the conflict 
``should be conducted with sensitivity and rigorous intellectual 
integrity, devoid of any political interference.''

Conclusion
    As noted at the outset, it was quite a formidable political 
achievement to achieve consensus on the heads of agreement contained in 
the Stormont House Agreement. As ever on these matters, `the devil will 
be in the detail' contained in the enabling legislation. However, if 
the political will exists from the different political actors, and that 
will is translated into robust legislation designed to maximise the 
effectiveness of the different mechanisms, the SHA does provide a 
roadmap to make significant progress in dealing with the past in 
Northern Ireland.

                 Prepared Statement of Anne Cadwallader

    My name is Anne Cadwallader and I am a staff member of the Pat 
Finucane Centre. The Centre is named after Geraldine Finucane's 
husband, Pat, because we--like him--believe in the potential of the 
rule of law, impartially administered, to uphold human rights and thus 
prevent and even resolve conflict.
    As you are hearing, I am English. Since 1981, I have covered the 
conflict in Ireland on both sides of the border, first with the BBC in 
Belfast, then for the Irish Press, RTE, Reuters and many other media 
organisations.
    When I began working for the Pat Finucane Centre five years ago, 
the bulk of the research on which the book we published last year, 
Lethal Allies: British Collusion in Ireland had been completed. I pay 
tribute to my colleagues in the PFC, particularly Alan Brecknell whose 
own father was one of those killed, and to Justice for the Forgotten in 
Dublin for their disciplined, determined and intelligent work over the 
fifteen years it took to reveal the facts on which the book is based.
    I have never been able to understand why the British essayist G. K. 
Chesterton wrote about the Irish that ``for all their wars are merry 
and all their songs are sad''. How could anyone see anything remotely 
humorous in the 1798 Rebellion in which 20,000 died or Cromwell's 
``Sacking of Drogheda''?
    Perhaps it's the same mind-set that considered it appropriate to 
plan an Independence Day barbecue to commemorate the burning of the 
White House.
    Last week I sat beside a woman in County Armagh who had been 
blinded in one eye in a loyalist bomb explosion. She had been chatting 
to a friend about her upcoming marriage when the bomb exploded--but at 
least it spared her life and that of the unborn son she was carrying.
    Alas, he also became a random victim of the violence in Ireland--
shot dead at the age of 17 during a break in his studies at Armagh 
city. Nearly twenty years separate the two events. Collusion unites 
them.
    The same bomb explosion also killed a young mother of three boys, 
Elizabeth McDonald. Her four-year-old son was blown out of his cot and 
found in the rubble crying over her body.
    Across the street, another mother was cradling a dying son, Gerard 
McGleenan, aged 23. His heart pierced by a long, sharp piece of the 
shattered bomb car.
    What has only recently been revealed is that the bomb was made, 
transported and detonated with the active involvement of members both 
of the Royal Ulster Constabulary, the police, and the British Army.
    We know this because investigators have found a paper trail that 
establishes it without a shadow of a doubt. To this day, no-one in 
authority has ever gone to any of the bereaved families or the injured 
to acknowledge the state's involvement in these horrific crimes.
    The papers establishing the state's guilt lay for over thirty years 
in locked police archives. Those who knew at the highest levels, and I 
mean the highest levels, must have hoped they would never be 
discovered.
    When officers, selected for their independence of the RUC, in the 
Historical Enquiries Team, found the paper trail, and finally informed 
the families, you can imagine their deep shock.
    Since we first published the details in our book, Lethal Allies, 
however, there has been the most deafening silence from London about 
these and 120 other murders in the same series perpetrated in both 
jurisdictions in Ireland.
    It is--in my view--a most shabby, unworthy, dishonourable silence. 
The guilty silence of a disgraced establishment that hasn't the courage 
to face the truth.
    If those in authority in London are listening, might I suggest they 
would be well-advised to reconsider because the families are not going 
away--and neither are their lawyers.
    Last week in Liverpool, England, a senior police officer admitted 
he lied in the aftermath of the Hillsborough football disaster in which 
96 people were killed. It was welcomed by the bereaved families who, 
nevertheless pointed out that some elderly relatives had passed away 
before hearing the truth. Truth delayed is truth denied.
    We, along with other human rights NGOs in Ireland including Justice 
for the Forgotten, Amnesty International, the Committee on the 
Administration of Justice and Relatives for Justice now demand that 
London learn that facing up to the truth is not only the right thing to 
do, it can also be healing.
    The British prime minister, David Cameron, apologised for the 
British Army's shooting of fourteen people on Bloody Sunday. The sky 
did not fall in. The Irish government acknowledged, albeit on the basis 
of very scanty evidence, Garda collusion in the IRA murders of two RUC 
officers, Robert Buchanan and Harry Breen, in 1989.
    For the families we represent there has been NO acknowledgement, no 
truth--just a grim and enduring silence.
    Collusion is a word that has sometimes been used as a political 
battering ram. But it was a tactic used by the RUC and British military 
intelligence to manipulate and control both sides throughout the recent 
conflict.
    It has many forms. In 1972, the worst year of the conflict, the 
General Officer Commanding the British Army in Northern Ireland, while 
recognising the UDA sectarian threat, nevertheless said soldiers should 
ignore UDA patrolling and barricading of Protestant areas which ``could 
be almost entirely secured by a combination of UDA, Orange Volunteers 
and RUC''. The military, he said, could ``turn a blind eye to UDA arms 
when confined to their own areas''.\1\
    After the Dublin/Monaghan bombings in which 34 people, including an 
unborn child perished, it took the form of the British government 
deciding not to share information on the bombers with the Irish 
government as it ``could embarrass the Crown''.\2\
    After the 1971 bombing of McGurk's Bar in which 15 died, it took 
the form of a dishonourable attempt to blame the victims, a claim that 
the bomb was an IRA ``own goal''.\3\
    There is hard evidence that the gang who attacked a bar in 
Loughinisland, shooting dead six men as they watched Ireland play Italy 
at Giant's Stadium in New York during the 1994 World Cup, included at 
least one informer whose identity was protected.\4\
    It is now clear that UVF informers in the pay of RUC Special Branch 
in the Mount Vernon estate in North Belfast were responsible for at 
least 20 killings.\5\
    Each and every bit of the truth is being dragged out piece by piece 
but the PFC will shortly be publishing more evidence on the secret 
relationships between loyalist paramilitaries and the British 
government in the 1970s.
    Collusion was not restricted, though, to the manipulation of 
loyalists. Evidence is emerging that covert British intelligence 
agencies manipulated republican informers, such as Freddie Scappaticci, 
allowing them to murder at will.\6\
    Admitting collusion will not be easy for London because it will 
tear aside the polite fiction that successive British governments were 
merely neutral umpires during 35 violent years.
    The excuse is sometimes made, privately, that, in the face of a 
determined and bloody armed insurrection, such as that mounted by the 
IRA, impartial administration of the rule of law has to be compromised.
    The then British prime minister, Margaret Thatcher, told an 
interviewer in October 1988 that ``to beat off your enemy in a war'' 
some civil liberties have to be suspended.\7\
    We contend that, at a time of civil strife, it is even MORE 
important that the law be upheld without fear or favour and that the 
principle that no-one is above the law, is implemented in full. Once 
you tailor the means to meet the ends, no matter how laudable, you are 
on a slippery slope.
    We contend that London went down that slippery slope during the 35 
year civil conflict in Northern Ireland and that this rendered the 
British state culpable for at least part of the loss of life, the 
grief, the waste, the agony that the people of Northern Ireland 
suffered.
    The nature of the collusion the PFC examined over the last 15 
years, that of the 1970s, was of a less structured and targeted nature 
than the same policy during the 1980s and 1990s when British double-
agents imported arms into Northern Ireland, substantially increasing 
the loyalist kill-rate and murdering Pat Finucane.
    The recent report by Sir Desmond de Silva into his murder concluded 
that 85% of all the intelligence available to loyalists came from 
within the police or military.\8\
    Collusion fuelled the conflict leading to the deaths of many police 
officers and soldiers as well as civilians both Protestant and 
Catholic.
    The PFC has discovered hundreds of documents in the British 
National Archives which establish beyond any reasonable doubt that 
London knew from a very early stage that, in setting up the Ulster 
Defence Regiment, the UDR, it was establishing a pool of trained 
killers with access to an unlimited source of modern and deadly 
weapons.\9\
    In the area we examine in Lethal Allies, the aim seems to have been 
to terrorise the Catholic/nationalist community into lowering its 
political, constitutional and economic aspirations. With one exception, 
ALL those targeted in the series of murders we examined were civilian 
non-combatants.
    They were shopkeepers, publicans, farmers, small businessmen, 
workers who had been promoted. Nine were members of the SDLP and many 
had close links to the Gaelic Athletic Association.
    The official record currently states that the percentage who died 
as a direct result of state violence in the conflict amounts to only 
ten per cent. That figure will rise, once collusion is taken into 
account, to a far higher number.
    The PFC will today place on the record here at Congress a small 
selection of the declassified documents we have uncovered from the 
British and Irish national archives. We invite members of Congress to 
read them. [Available at http://www.patfinucanecentre.org.]
    Mrs. Thatcher, for example, even before she was elected prime 
minister, was quite clearly informed that the UDR, the largest regiment 
in the British Army, consisting exclusively of locally-recruited 
soldiers, was heavily infiltrated by loyalists and that in a crisis 
could not be relied upon to follow orders.\10\
    We know from the words of a secret British document \11\ that the 
UDR was the sole source of the heavy-duty modern weapons used to orphan 
so many children and London accepted that between 5 and 15% of its 
entire membership were active loyalists.
    Such was the extent of theft from its arsenals that the British 
kept monthly records. They knew even then that the guns were being used 
to kill repeatedly.
    Most of the families we represent realise that seeing anyone 
brought to court for the crimes described here, is beyond their reach. 
With a few exceptions, they are not what I would call ``bitter'' or 
recriminatory.
    They are, however, full of steely determination that the truth 
should be told. That the shadowy figures whose names they don't know 
and probably never will, should be held at least collectively 
accountable.
    They hope that this will ensure that those responsible for taking 
similar decisions will never again collude in the deaths of the 
citizens they are meant to protect.
    We thank Congress for its continuing interest and hope by this time 
next year there will be progress towards reconciliation in Ireland. It 
may even be that these and other revelations will show both sides they 
have more in common than they thought.

    \1\  British National Archives, reference CJ4/266, Tuzo paper, 9 
July 1972
    \2\  British National Archives, reference: FCO87 447
    \3\  See: http://mcgurksbar.com/collusion/
    \4\  http://www.amazon.co.uk/THE-LOUGHINISLAND-MASSACRE-Survivors-
Diary-ebook/dp/B00IONLOJQ
    \5\  http://www.thedetail.tv/issues/54/the-state-and-northern-
ireland%E2%80%99s-past/the-state-and-northern-ireland%E2%80%99s-past
    \6\  http://www.belfasttelegraph.co.uk/news/northern-ireland/
freddie-scappaticci-was-our-most-valuable-spy-in-ira-during-the-
troubles-british-army-chief-28739868.html
    \7\  Interview in The Times (London) 26 October 1988
    \8\  https://www.gov.uk/government/uploads/system/uploads/
attachment_data/file/246867/0802.pdf
    \9\  British National Archives, attached in full: ``Subversion in 
the UDR'', August 1973 [Available at http://www.patfinucanecentre.org.]
    \10\  British National Archives, attached: PREM 16/520 [Available 
at http://www.patfinucanecentre.org.]
    \11\  British National Archives, attached in full: ``Subversion in 
the UDR'', August 1973

                                 [all]
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
